<html>
<title> - NEW TECHNOLOGIES IN RAILROAD SAFETY AND SECURITY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
            NEW TECHNOLOGIES IN RAILROAD SAFETY AND SECURITY

=======================================================================

                                (109-15)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                               RAILROADS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 28, 2005

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure





                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

21-704                 WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             ROBERT MENENDEZ, New Jersey
VERNON J. EHLERS, Michigan           CORRINE BROWN, Florida
SPENCER BACHUS, Alabama              BOB FILNER, California
STEVEN C. LaTOURETTE, Ohio           EDDIE BERNICE JOHNSON, Texas
SUE W. KELLY, New York               GENE TAYLOR, Mississippi
RICHARD H. BAKER, Louisiana          JUANITA MILLENDER-McDONALD, 
ROBERT W. NEY, Ohio                  California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
JERRY MORAN, Kansas                  EARL BLUMENAUER, Oregon
GARY G. MILLER, California           ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, Jr., New Jersey
ROB SIMMONS, Connecticut             LEONARD L. BOSWELL, Iowa
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         BRIAN BAIRD, Washington
TODD RUSSELL PLATTS, Pennsylvania    SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
BILL SHUSTER, Pennsylvania           RICK LARSEN, Washington
JOHN BOOZMAN, Arkansas               MICHAEL E. CAPUANO, Massachusetts
JIM GERLACH, Pennsylvania            ANTHONY D. WEINER, New York
MARIO DIAZ-BALART, Florida           JULIA CARSON, Indiana
JON C. PORTER, Nevada                TIMOTHY H. BISHOP, New York
TOM OSBORNE, Nebraska                MICHAEL H. MICHAUD, Maine
KENNY MARCHANT, Texas                LINCOLN DAVIS, Tennessee
MICHAEL E. SODREL, Indiana           BEN CHANDLER, Kentucky
CHARLES W. DENT, Pennsylvania        BRIAN HIGGINS, New York
TED POE, Texas                       RUSS CARNAHAN, Missouri
DAVID G. REICHERT, Washington        ALLYSON Y. SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 JOHN T. SALAZAR, Colorado
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
VACANCY

                                  (ii)



                       SUBCOMMITTEE ON RAILROADS

                  STEVEN C. LaTOURETTE, Ohio, Chairman

THOMAS E. PETRI, Wisconsin
SHERWOOD L. BOEHLERT, New York       CORRINE BROWN, Florida
JOHN L. MICA, Florida                NICK J. RAHALL II, West Virginia
SPENCER BACHUS, Alabama              JERROLD NADLER, New York
JERRY MORAN, Kansas                  ROBERT MENENDEZ, New Jersey
GARY G. MILLER, California           BOB FILNER, California
ROB SIMMONS, Connecticut             ELIJAH E. CUMMINGS, Maryland
TODD RUSSELL PLATTS, Pennsylvania    EARL BLUMENAUER, Oregon
SAM GRAVES, Missouri                 LEONARD L. BOSWELL, Iowa
JON PORTER, Nevada                   JULIA CARSON, Indiana
TOM OSBORNE, Nebraska                PETER A. DeFAZIO, Oregon
MICHAEL E. SODREL, Indiana           JERRY F. COSTELLO, Illinois
LYNN A. WESTMORELAND, Georgia,       EDDIE BERNICE JOHNSON, Texas
Vice-Chair                           JAMES L. OBERSTAR, Minnesota
DON YOUNG, Alaska                      (ex officio)
  (ex officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Chipkevich, Robert J., Director of Railroads, Pipelines, and 
  Hazardous Materials Investigation Department, National 
  Transportation Safety Board....................................     8
 Collins, Daniel M., President, Operation Respond Institute, 
  accompanied by James Boone, Vice President, and Gerald Lynch, 
  Executive Director of Regional Information Sharing System......   145
 Hamberger, Edward R., President, Association of American 
  Railroads......................................................   131
 Hill, Jeremy, Senior Vice President, Union Switch and Signal 
  Company........................................................   145
 Pickett, William D., President, Brotherhood of Railroad 
  Signalmen......................................................   131
 Rader, Thomas, President, Colorado Railcar Manufacturing........   145
 Samuels, Dr. John, Vice President, Operation Planning Support, 
  Norfolk Southern...............................................   131
 Strang, Jo, Deputy Associate Administrator for Railroad 
  Development, Federal Railroad Administration...................     8

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Costello, Hon. Jerry F., of Illinois.............................   180
Johnson, Hon. Eddie Bernice, of Texas............................   206
Menendez, Hon. Robert, of New Jersey.............................   209
Oberstar, Hon. James L., of Minnesota............................   212

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Chipkevich, Robert J............................................   156
 Collins, Daniel M...............................................   168
 Hamberger, Edward R.............................................   182
 Hill, Jeremy....................................................   194
 Pickett, William D..............................................   209
 Rader, Thomas...................................................   219
 Samuels, Dr. John...............................................   231
 Strang, Jo......................................................   244

                       SUBMISSIONS FOR THE RECORD

 Chipkevich, Robert J., Director of Railroads, Pipelines, and 
  Hazardous Materials Investigation Department, National 
  Transportation Safety Board, response to a question from Rep. 
  Menendez, National Transportation Safety Board public hearings.    75
 Samuels, John, Vice President, Operation Planning Support, 
  Norfolk Southern, response to a question from Rep. Menendez, 
  type of laser..................................................   143
 Strang, Jo, Deputy Associate Administrator for Railroad 
  Development, Federal Railroad Administration:

  Response to a question from Rep. Menendez, Accident/Incident 
    Details......................................................    14
  Response to a question from Rep. Menendez, Cirumstances in 
    other Incidents for 2004, and type person involved by 
    decending frequency..........................................    21
  Response to a question from Rep. Menendez, Positive Train 
    Control...................................................... 71,73
  Response to a question from Rep. Miller of California, 
    crashworthiness research on tables in passenger cars.........    83
  Response to a question from Rep. Johnson, rail infrastructure..   118
  Response to a question from Delegate Norton DHS and rail 
    security.....................................................   123
  Response to a question fred Rep. Sodrel, rail passenger 
    fatalities...................................................   129

                         ADDITION TO THE RECORD

Ohio Rail Development Commission, James Seney, Executive 
  Director, statement............................................   256


            NEW TECHNOLOGIES IN RAILROAD SAFETY AND SECURITY

                              ----------                              


                        Thursday, April 28, 2005

        House of Representatives, Committee on 
            Transportation, Subcommittee on Railroads and 
            Infrastructure, Washington, D.C.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Steve LaTourette 
[chairman of the subcommittee] presiding.
    Mr. LaTourette. Good morning. The hearing of the Railroad 
Subcommittee will come to order.
    I want to welcome all of our members and our witnesses here 
today, the first meeting of the Railroad Subcommittee in this 
Congress, and especially the new members of our Subcommittee 
that I want to speak briefly about, and hopefully they will 
join us a little bit later.
    On the Republican side, our new Vice Chair is Lynn 
Westmoreland of Georgia. Lynn, I understand, has quite a 
background in contracting and construction, and I am sure he is 
going to be a valuable resource to the Subcommittee as we move 
forward with our discussion of rail in America.
    Next, Mike Sodrel of Indiana. I am told that Mike's family 
started in the transportation and logistics business back in 
1867. So it looks like Mr. Sodrel has transportation in his 
blood, and I know that he is also going to be a great asset to 
the Subcommittee and we welcome him aboard.
    Also joining us as a new member is Tom Osborne of Nebraska. 
The sports fans in the audience will probably recognize Tom. 
Before coming to Congress, he played professional football for 
the Washington Redskins and San Francisco 49ers, and of course 
he also served as head coach of the Nebraska Cornhuskers for 25 
years, where he enjoyed winning seasons every year. We are 
happy to have Tom with us as well.
    Today's hearing is on the subject of new technologies in 
railroad safety and security. According to data published by 
the Federal Railroad Administration, railroad safety has 
improved significantly over the past two decades. The latest 
statistics show that the overall accident rate has decreased 16 
percent between 2000 and 2003. The rate of employee injuries 
has declined nearly 21 percent during that same period, and 
railroad employees have an injury rate lower than many other 
heavy industries. Working on the railroad is a difficult and 
often physically demanding job, and so I want to give credit to 
our railroad employees who strive to make safety a top 
priority.
    Today we are going to hear testimony about new technologies 
in railroad safety, some of which are already yielding benefits 
to railroad employees, freight carriers, and the traveling 
public. In particular, we want to hear about some of the new 
technologies being developed by the FRA such as Positive Train 
Control and the signal systems being developed in Europe by 
Union Switch and Signal. I would be grateful to hear any 
comments regarding these technologies from the fellows in the 
front lines, the Brotherhood of Railroad Signalmen.
    This hearing is not just about infrastructure, it is about 
rail transportation. I have heard several positive comments 
regarding a new generation of self-propelled railcars, and hope 
that we will hear details from Colorado Railcar.
    A couple of housekeeping items before I yield to our 
distinguished Ranking Member. I want to ask unanimous consent 
to allow all members to have 30 days to revise and extend their 
remarks and to permit the submission of additional statements 
and materials by the witnesses. So ordered, without objection.
    And then I am also advised that later during the hearing 
Ms. Norton of the District of Columbia may join us. Although a 
member of the full Committee, she is not a member of the 
Subcommittee, and would ask unanimous consent that she be 
permitted to participate in today's hearing. Without objection, 
so ordered.
    And lastly, our distinguished Ranking Member, our regular 
distinguished Ranking Member, Ms. Brown of Florida is 
unavoidably detained in other parts of the world and will not 
be with us today. But we are lucky and honored to have with us 
Mr. Menendez from New Jersey to fill in ably for her.
    At this time it is my pleasure to yield to you for any 
comments you may wish to make.
    Mr. Menendez. Thank you, Mr. Chairman. I am happy to sit in 
for our distinguished Ranking Member who, as you said, is 
unavoidably detained. I am happy to be a member of the Rail 
Subcommittee in this session of Congress.
    However, I am not terribly happy about the status of rail 
safety and security in this country. I know our witnesses are 
here today to talk about new technologies that will make our 
trains safer and more secure, and I look forward to hearing 
what they have to say. But I would also like to see this 
Subcommittee hold a hearing on rail safety oversight, 
particularly in light of a number of recent accidents and the 
series of Pulitzer Prize winning articles in the New York Times 
last year regarding the cozy relationship between the Federal 
Railroad Administration and Union Pacific.
    An Inspector General report from December brought to light 
a number of disturbing questions about FRA's regulatory 
oversight process and whether that process is sufficient to 
ensure public safety. I think this Subcommittee is exactly the 
right place to address that, but I think we are long overdue 
since we have not had a true rail safety oversight hearing in 
almost three years. However, that is for another day.
    Today, we are here to discuss how technology can better 
protect the people that work, ride, or live alongside our 
Nation's railways. This is an extremely important issue for me 
since my district is tightly packed with freight and passenger 
rail lines, including the Northeast corridor. If you add in 
subways, light rail, and commuter railroads, there are millions 
of people on the rails everyday in this country and we have not 
been spending nearly enough to ensure their safety.
    That is why I introduced the Rail and Public Transportation 
Security Act earlier this year, which provides over $10 billion 
to address critical operating and capital needs for Amtrak, 
freight rail, and public transportation security, including 
$300 million for research, development, and field testing of 
new technologies.
    In addition, my bill includes a welded rail and tank car 
safety improvement program that was developed in response to 
the derailment in Minot. The recent tragedy in South Carolina 
also shows us how seriously we need to take tank car safety and 
how we have to make a serious Federal commitment in order to 
protect people from both accidental and malicious disasters.
    I am amazed that the Federal Government has not made this 
investment already. Rail systems are extremely vulnerable to 
terrorists attack, as shown by last year's attacks in Madrid. 
In fact, since September 11, there have been over five times as 
many attacks on public transportation targets than on 
airplanes.
    I would ask my colleagues to imagine what we would have 
done, what action we would have taken if the Madrid train 
bombings had occurred in our homeland on our soil. What 
immediate investments would we be ready to make? What urgent 
action would we be willing to take? The new technologies we 
will hear about today are a first step towards that action, but 
we need to do more and we need to do it sooner rather than 
later.
    I thank the witnesses for being here today. Thank you, Mr. 
Chairman, for holding this hearing.
    Mr. LaTourette. I thank the gentleman very much.
    We have been joined by some additional members at this 
time. I see the distinguished Chairman of the Aviation 
Subcommittee, Mr. Mica of Florida, has joined us and he has 
also brought guests, which we thank you very much for swelling 
the audience. It would be my pleasure to yield to you, Mr. 
Mica, for any observations you would like to make.
    Mr. Mica. Thank you, Mr. Chairman. I appreciate your 
recognizing my guests. I have students from the Geneva Academy 
in Central Florida in the 7th congressional district, and 
several other voting age constituents, and I am always pleased 
to see them here and welcome them. But I want to also thank 
you, Mr. Chairman, for holding this hearing today, and also for 
your focus on new technologies and railroad safety and security 
issues. I think you have a great list of panelists.
    The rail industry is facing some very serious challenges. I 
spoke with a group yesterday and liability is certainly one of 
the challenges that they face, along with others. But also 
providing new systems for safety which will provide less 
exposure for accidents and for the challenges that they face in 
providing a cost-effective alternative to paving over our 
country and providing a good means of moving commodity, 
freight, and other goods through our communities.
    There are also challenges we know now by attempts to move 
hazardous and other materials through some of our communities. 
We need to find ways to assist them to move those much-needed 
items through our communities, including even basic things like 
chlorine which we rely on for safe water supplies to our local 
municipalities and other water systems that need those 
chemicals.
    So we face a number of challenges. I think this hearing 
will enlighten us as to what the Federal Railroad 
Administration and others have done to come up with new safety 
techniques. We will also hear recommendations I think that are 
necessary from the industry.
    Finally, I am excited, I think you have got some folks from 
Colorado Railcar. I have taken a great interest in getting the 
United States into producing technologies that will take some 
of the cars off of our roads or at least give us some 
alternatives, and actually manufacture once again in the United 
States some of the essential equipment for the future.
    So, again, I thank you. I look forward to hearing from the 
panelists. And I again welcome our guests.
    Mr. LaTourette. I thank the gentleman. Ms. Johnson of 
Texas, any remarks?
    Ms. Johnson. Thank you very much, Mr. Chairman, Ranking 
Member, for holding this hearing. It is my first one on this 
Subcommittee and it is an important one to me because, as we 
know, our Nation's transportation system is the backbone of our 
economy and our way of life. Every day various modes within the 
Nation's transportation system transports millions of people 
and tons of goods throughout the country. So critically 
important to this equation is the role of secure freight and 
passenger rail systems.
    While the tragic events of September 11, 2001 have forced 
us to take a hard look at how we secure our various modes of 
transportation, rail security remains a significant challenge. 
According to GAO, a number of positive steps have been taken by 
rail stakeholders to bolster the Nation's rail security since 
that time, such as performing risk assessments, emergency 
drills, and developing security plans. However, one only needs 
to turn to the news or pick up a local newspaper to realize 
that our Nation's rail systems still remain extremely 
vulnerable to the possibility of terrorist attacks that could 
jeopardize countless lives and cause serious economic 
disruption. For example, on June 28th of last year two freight 
trains carrying chlorine gas collided in my State killing three 
people. Only one of the dead was aboard; the others died as a 
result of gas drifting over a residential neighborhood over a 
mile away. Further, we must never forget the horrific Madrid 
train bombings last year that left 200 commuters dead and 1,500 
wounded.
    These incidents and countless others highlight the unique 
challenges and risks associated with the rail system. So while 
I am heartened by GAO's findings, more work remains to be done, 
particularly in resources invested toward surface 
transportation concerns. I feel strongly that as policymakers 
we must revive our resolve to approach rail security challenges 
with a sense of urgency. To do otherwise only serves to further 
compromise the safety of the American public. According to the 
Mineta Institute, globally, surface transportation systems were 
the target of more than 195 terrorist attacks from the 1997 
through the year 2000.
    As I close, I want to thank our witnesses that have come 
before us to testify this morning. I look forward to your 
testimony. I am particularly interested in learning more about 
the latest security innovations, the level of coordination 
among rail stakeholders, and what we as a body may do to 
further assist them to help bolster freight and passenger 
security efforts. So thank you again, Mr. Chairman, for this 
hearing.
    Mr. LaTourette. I thank the gentlelady very much. In a 
moment I will yield to Mr. Miller, Westmoreland, and Osborne 
for comments they would like to make. But I see we have been 
lucky enough to be joined by the distinguished Ranking Member 
of the full Committee. And so this must be an important hearing 
if Mr. Oberstar is here.
    Mr. Oberstar, I would yield to you for any observations you 
would like to make.
    Mr. Oberstar. Mr. Chairman, all of your hearings are 
important ones. But when it comes to safety, whether in rail, 
or aviation, or highways, maritime, it gets my attention. And 
it is a very promising initiative on your part to explore in 
the context of a hearing new technologies that may improve both 
safety and security. But I think to deal with the issue fully, 
we need to go beyond technology.
    We have seen in recent years there is an increase in rail 
accidents, not an alarming increase, but an increase that gets 
my attention and that of the National Transportation Safety 
Board and the Federal Railroad Administration. There were over 
3,100 accidents in 2004. That was up from just under 3,000 in 
2003, 2,700 accidents in 2002. The trend is in the wrong 
direction. And then we had the catastrophic accident in 
Graniteville, South Carolina, that the NTSB said was a result 
of improperly lined switches. The IG at the Department of 
Transportation said that the trend of rail safety data 
indicates improperly lined switches are the second leading 
cause of rail accidents and the principal cause of accidents 
resulting from human error.
    Technology helps, technology is vitally important, but in 
the end, people make these decisions. Properly trained people, 
properly experienced people can avoid accidents with the right 
technology. The IG Report in February of this year on Safety 
Findings and Recommendations at the FRA show that serious 
safety problems have been present for all four of our major 
railroads, and that despite an increase in the civil penalties 
that FRA has assessed on those railroads.
    But the IG also highlights prior audit report 
recommendations that the Federal Railroad Administration has 
failed to implement. The IG's 2002 report recommended that FRA 
make greater use of inspection results developed in the Safety 
Assurance and Compliance program. Now the RSAC was initiated 
many years ago, almost a decade ago. It initially had good 
results. But if the recommendations from RSAC are not 
implemented, then they do not do any good, there is not a life-
saving benefit.
    Now I am very encouraged that at the outset of your tenure 
as Chairman of the Subcommittee you are putting this spotlight 
on safety. I hope that it will not be a momentary event, that 
this will be followed up with further inquiries suggested by 
the information we will receive in the course of today's 
hearing. I have read the testimony in advance. If my time 
permits, I will have some questions about various elements.
    Just recently, for example, the problems with Acela, the 
rotor brakes that have demonstrated slim, spider-like cracks 
that have migrated into major failures raise questions about 
the underlying technology--was the metal cast properly, at the 
proper temperature, was it cooled properly in the sequential 
cooling that is necessary to ensure that bubbles do not develop 
in the interior of the casting.
    I am reminded of the disaster of United Airlines DC-10 over 
Iowa, when the rotor in the tail engine, the titanium block 
into which the fan blades are inserted, catastrophically 
failed. One hundred and ten people lost their lives. It was a 
miracle that pilot was able to bring that aircraft down; it had 
lost all hydraulics. That was because of a number of failures 
that started with the casting of that titanium block.
    Now, we have 131 rotors in the Acela that have failed, for 
a combination of reasons perhaps going back to the original 
design specifications, but also the subsequent inspection and 
perhaps over-ambitious five-year life schedule for those rotor 
brakes, and perhaps also, as some are suggesting, our design 
specification of a railcar that is twice as heavy as European 
railcars where this technology originated.
    If our Federal Railroad Administration is not being 
vigilant on these matters and is not looking at these matters 
in depth and is not following up on them, then this Committee 
has a responsibility to do it. And you have made a good start 
today, Mr. Chairman, and I thank you very much.
    Mr. LaTourette. I thank the gentleman very much. I would 
tell the distinguished Ranking Member it is our intention to 
have a rather vigorous schedule of hearings, working with you 
and Ms. Brown and Chairman Young, and the Acela rotor issue 
will be the subject of a hearing occurring on May the 11th and 
we will explore that issue in detail.
    Mr. Miller, anything you care to say?
    Mr. Miller. Thank you, Mr. Chairman. Rail safety is 
extremely important in my district because of the increase in 
California we are going to experience in freight movement. My 
district seems to be the largest gateway for trade in the 
country. We have both the Long Beach and the L.A. harbors that 
all those ships are coming into each year, and about $250 
billion worth of cargo either comes through my district or most 
of my district via train or truck. It is very problematic.
    We are looking by 2020 at about two and a half to three 
times the amount of trains we experience today will be 
basically impacting our districts. We have a tremendous problem 
with at-grade crossings. Most of my communities, which really 
surprised me, over the last eight or ten years have pretty much 
been up in arms and trying to be proactive about the issue of 
the amount of impact that they face trying to cross those at-
grade crossings, whether it is trucks trying to deliver goods, 
or people trying to get back and forth to work or take their 
kids to school.
    Rail safety is becoming a huge issue. We just recently, on 
January 26th, in Glendale had a Metrolink train that slammed 
into an SUV killing 11 people. It also clipped a northbound 
Metrolink train, which could have been very disastrous. In 
April of 2002, we had 3 people killed and 260 people were 
injured in Placentia, in my district, when a freight train 
missed a light and ran into a commuter train. And in June 2003 
we had a runaway train in Commerce that went through my 
district and it destroyed six houses. It was a miracle that 
nobody really was injured in that accident. But what that has 
done is brought an acute awareness of the situation we face in 
California. Rail safety is absolutely something that has to be 
addressed.
    In California, about $802 billion worth of goods are 
shipped from our State each year. That is either going on a 
truck or most of it is going on a train, especially through the 
central part of the United States. So we have a challenge with 
increased freight movement and we need to be ready to deal with 
the issue as it increases, and safety is something that is 
paramount. I trust that our economy is going to continue to 
grow, that nothing will happen to that. And if it does, and I 
believe it will, we are also going to be increasing the amount 
of freight and goods that are going to be moved.
    So I am looking forward to the testimony today, and I am 
glad you are here. Welcome.
    Mr. LaTourette. I thank you, Mr. Miller.
    Coach Osborne and Mr. Sodrel, you missed the glowing 
introductions I gave of you at the beginning of this hearing. 
We would like to get to the witnesses, but if there are brief 
comments you would like to make. Mr. Osborne, first to you? Mr. 
Sodrel?
    Mr. Sodrel. I would just like to thank the witnesses for 
coming here today. I spent my professional life in highway 
transportation, so I will be getting an education on rail, 
although I have a brother-in-law, retired UTU conductor and 
several friends who were engineers that started out on the old 
Louisville-Nashville railroad years ago. So I thank the 
witnesses for being here, and I thank you, Mr. Chairman.
    Mr. LaTourette. I thank the gentleman.
    Today's hearing is comprised of three panels. The first 
panel has Ms. Jo Strang, the Deputy Associate Administrator for 
Railroad Development at the Federal Railroad Administration, 
and also Bob Chipkevich, who is the Director of Railroads, 
Pipelines, and Hazardous Materials Investigations Department at 
the National Transportation Safety Board. We thank both of you 
for coming. We have received your written observations and we 
look forward to your testimony.
    Ms. Strang, welcome. We will start with you.

  TESTIMONY OF JO STRANG, DEPUTY ASSOCIATE ADMINISTRATOR FOR 
  RAILROAD DEVELOPMENT, FEDERAL RAILROAD ADMINISTRATION; BOB 
  CHIPKEVICH, DIRECTOR OF RAILROADS, PIPELINES, AND HAZARDOUS 
  MATERIALS INVESTIGATION DEPARTMENT, NATIONAL TRANSPORTATION 
                          SAFETY BOARD

    Ms. Strang. Thank you. Mr. Chairman and members of the 
Subcommittee, I very much appreciate the opportunity to appear 
before you today, on behalf of Secretary Mineta and Acting 
Administrator Robert Jamison, on the subject of new 
technologies in railroad safety. I would appreciate your 
submitting my full statement for the record; I plan to 
summarize it.
    I supervise the Federal Railroad Administration's research, 
development, and demonstration efforts, so I pay a great deal 
of attention to new technologies in safety. Prior to this, I 
supervised the National Transportation Safety Board's rail and 
rail transit accident investigations, so I am familiar with the 
consequences of railroad safety problems.
    Safety is our top priority, and the promise that technology 
holds to improve safety is compelling. Recent statistics show 
that the industry as a whole is getting safer, but the spate of 
recent accidents shows that we still have room to improve, and 
we must accelerate the rate of progress.
    In general, the safety trends on the Nation's railroads are 
favorable. The data for calendar year 2004 show that since 2003 
total rail accidents and incidents are down slightly, and 
employee casualties are down about 8 percent.
    However, not all trends are positive. Improvements in the 
rate of train accidents have slowed, and bad accidents continue 
to occur. FRA is committed to improving this record, and we are 
focusing on ways to prevent, eliminate, or minimize the harm 
resulting from train accidents. I will focus my testimony on 
new technologies that hold great promise to improve rail 
safety.
    Track defects accounted for 34 percent of derailments over 
the last five years. FRA has an active research program for 
developing and deploying enhanced track inspection systems as a 
preventative approach to reducing track accidents. I will 
describe some of the key systems that FRA is currently 
developing.
    This is a picture of a crack in a joint bar. First, is an 
automated joint bar inspection system. Current joint bar 
inspection practices rely mostly on visual inspection and, in a 
few cases, hand mapping with ultrasonic probes. These methods 
are time-intensive and prone to human error. FRA is developing 
an automated photo inspection system that will identify cracks 
in joint bars.
    This is a picture of the completed joint bar inspection 
system. Our initial tests showed that a prototype system 
mounted to a rail vehicle and operated at 30 miles per hour was 
able to detect all cracked bars identified by visual 
inspection, as well as additional cracks undetected by the 
human eye.
    Internal rail defects due to fatigue remain a serious 
problem which has been exacerbated by recent trends in 
increasing freight axle loads. Internal defects can be 
identified only by specialized ultrasonic or induction 
measurement cars that still cannot be operated at more than 10 
miles per hour. Defects in the web or the base of the rail are 
also extremely difficult to detect.
    So far I have only talked about the parts of the rail you 
can see. But we also need a way to inspect the subgrade, or the 
part beneath the track. FRA has identified ground-penetrating 
radar as a promising technology for finding poor track 
conditions that are hidden below the surface, and is working on 
developing a prototype system which will produce quantitative 
indices of track subsurface conditions. Once the prototype is 
completed, it will be installed on FRA's T-18 car for field 
testing in the spring of 2006.
    Collisions and overspeed derailments must also be 
prevented. PTC is an advanced train control technology that can 
prevent train collisions with automatic brake applications. It 
also provides for automatic compliance with speed restrictions 
and enhanced protection of roadway workers.
    FRA's final rule enabling Positive Train Control became 
effective in March 2005. The rule is a performance standard for 
a system railroads may choose to install, but does not require 
it to be installed. FRA is promoting the implementation of PTC 
by sponsoring development of technologies through partnerships 
with States and railroads, and by helping to provide NDGPS, a 
satellite-based navigation aid.
    FRA is also working on projects in Illinois, Michigan, 
Wisconsin, and Alaska. A significant challenge for FRA and the 
railroads in developing all such systems is to lower the cost 
of implementation.
    A fundamental technology for enabling the implementation of 
PTC systems is a network of reference stations that monitors 
GPS and transmits correction signals to an unlimited number of 
users, known as the Nationwide Differential Global Positioning 
System, or NDGPS. Any NDGPS receiver can then use these signals 
to improve the accuracy and integrity of GPS. When complete, 
there will be dual coverage throughout the United States to 
ensure the signals are always available.
    GPS has an accuracy of about 36 meters. Since parallel 
railroad tracks are only 4 meters apart, GPS accuracy does not 
meet our needs. Basic NDGPS improves the accuracy to 1 to 2 
meters. Similarly, the GPS system takes two to four hours to 
recognize that a satellite is out of tolerance and to notify 
the users. This is referred to as ``time-to-alarm integrity.'' 
Basic NDGPS improves the time-to-alarm integrity to six 
seconds. So, if a GPS satellite malfunctions, the NDGPS system 
eliminates the bad satellite from the position solution within 
six seconds, preventing any disruption to railroad operations.
    While we are trying to find ways to protect against 
derailments and collisions, we also need to protect train 
occupants now. In contrast to European and Asian rail systems, 
traffic on the U.S. rail system is dominated by private freight 
traffic. FRA continues to address the crashworthiness of 
passenger equipment and passenger and crew protection through 
our crash test program.
    Computer models have been developed to simulate a variety 
of passenger rail car crash scenarios. These models, combined 
with the results of crash tests and field investigations of 
passenger train accidents, are being used to develop strategies 
for increasing occupant protection.
    FRA is now testing components of structural crash 
worthiness for passenger rail equipment. We have completed both 
designs and test of the crush zone design for coaches. The 
results from the impact tests show that crash energy management 
design has superior performance over conventional equipment 
design.
    I would like to show a few videos now. The first one is a 
single car impact test. The first clip you will see is 
conventional equipment with no modification.
    [Video presentation.]
    Ms. Strang. You can see the result of the impact. Clearly, 
there would be loss of survival of space. The car was crushed 
severely.
    In the next clip, you will see a crash energy modified 
system which FRA has developed. By using design components to 
modify the energy, survival space remains much better 
preserved.
    [Video presentation.]
    Ms. Strang. The next video will show two cars coupled 
together and using crash energy management. In a conventional 
train-to-train coupling, the lateral forces force the train out 
of alignment and you get the typical accordion type of 
derailment that you have seen. This keeps the train cars in 
line with each other so that they are less likely to derail.
    [Video presentation.]
    Ms. Strang. You could see at the end, this is an overhead, 
how the cars remained together instead of being out of 
alignment.
    The next video is a train-to-train collision. We have 
planned another test in February, we hope, of this year that 
will have all crash energy modified cars, and we will be able 
to see what will happen.
    [Video presentation.]
    Ms. Strang. I would like to invite anybody on this 
Committee if you would like to see the next crash test.
    I would also like to point out that Metrolink, a commuter 
railroad in California, is working with us to deploy crash 
energy management systems in their next purchase.
    FRA is also actively addressing the crash worthiness of 
freight locomotives. Participants include the passenger and 
freight railroads, rail labor organizations, and locomotive 
builders.
    I have additional videos if time permits. Thank you, and I 
will be happy to answer your questions.
    Mr. LaTourette. I thank you very much. I think, before we 
go to Mr. Chipkevich, one of us did have a question. That 
second train-to-train, was it 30 miles an hour?
    Ms. Strang. It was 26.4.
    Mr. LaTourette. It was 26.4. Thank you very much.
    It is now my pleasure, Mr. Chipkevich, to ask you for your 
observations. Just again, without objection, all of the 
witnesses full statements will be made part of the record of 
this hearing and I would ask you to summarize your remarks as 
best you can. Thank you.
    Mr. Chipkevich. Thank you. Thank you, Chairman LaTourette 
and members of the Subcommittee. I want to thank you for the 
opportunity to testify today on behalf of the National 
Transportation Safety Board on an important rail safety issue, 
Positive Train Control.
    The NTSB has been investigating train collision and over-
speed accidents for over 35 years and issued our first 
recommendation related to this issue after a 1969 head-on 
collision between two Penn Central commuter passenger trains in 
Darien, Connecticut. The Safety Board in 1970 recommended that 
the Federal Railroad Administration study the feasibility of 
requiring a form of automatic train control at points where 
passenger trains are required to meet other trains.
    Since 1970, the Safety Board has issued numerous safety 
recommendations related to positive train separation. Our most 
recent safety recommendation was issued in 2001, following a 
collision between three Conrail freight trains in Bryan, Ohio. 
The trains were operating in fog, when a faster moving train 
missed a signal and hit the rear-end of a train that had slowed 
because of the poor visibility. A third train, coming in the 
opposite direction, struck the two derailed trains. The Safety 
Board has recommended that the FRA facilitate actions necessary 
for the development and implementation of Positive Train 
Control systems that include collision avoidance, and require 
implementation of Positive Train Control systems on main line 
tracks, establishing priority requirements for high-risk 
corridors such as those where commuter and intercity passenger 
trains operate.
    This safety recommendation was reiterated to the FRA after 
a Burlington Northern Santa Fe freight train collided head-on 
with a Metrolink passenger train in Placentia, California in 
2002.
    In the past six years, NTSB has investigated 38 accidents 
where Positive Train Control is a safety issue. Causal factors 
have been attributed to train crew mistakes and failure to 
operate trains in accordance with operating rules. Human factor 
causes have included fatigue, sleep-apnea, use of medication, 
reduced visibility, and distractions such as cell phone use. 
Further, FRA accident data show that for 2003 and 2004 human 
factor causes to head-on, rear-end, and side collision 
accidents were about 91 percent.
    NTSB is currently investigating five accidents involving 
freight train collisions. As a result of a collision between 
two trains in Macdona, Texas, on June 28, 2004, a tank car 
filled with chlorine was breached, resulting in three 
fatalities and a significant public evacuation. NTSB will 
examine whether Positive Train Control could have prevented the 
Macdona accident and another accident that occurred in 
Graniteville, South Carolina, on January 6, 2005. After the 
Graniteville accident, a switch on the main track was found in 
the open position to a siding. As a result of this accident, a 
tank car filled with chlorine was breached, resulting in nine 
fatalities.
    Progress on Positive Train Control has been slow. This 
safety issue has been on the NTSB's list of Most Wanted 
Transportation Safety Improvements since 1990. Notwithstanding 
the slow progress on Positive Train Control, the FRA has issued 
standards to address modern electronic systems and emerging 
technology in the signal and train control arena. The final 
rule should provide safety-critical standards that equipment 
must meet for use in Positive Train Control systems, but it 
will not provide interoperability standards that need to be 
addressed when equipment operated by different railroads is 
used on the same track. The FRA, the Association of American 
Railroads, and the Illinois Department of Transportation are 
funding the North American Joint Positive Train Control Project 
to help address equipment and operational issues that occur 
when different railroads use the same track.
    Positive Train Control systems can prevent human factor 
caused accidents, and the NTSB will continue to urge 
implementation of PTC systems through our accident 
investigations and the attention of our list of Most Wanted 
Transportation Safety Improvements.
    Thank you for the opportunity to testify.
    Mr. LaTourette. I thank you very much for not only your 
testimony, but summing it up before the red light came on. That 
was very nice of you. I appreciate that.
    Ms. Strang, I think you answered this question in your 
testimony, but I just want to be clear. When you were talking 
about Positive Train Control systems, the rulemaking that the 
FRA is currently undergoing, it is my understanding that you 
said the rulemaking would make those systems optional and the 
intention is not to make them mandatory at this time.
    Ms. Strang. That is correct. The rule was published on 
March 7, 2005, as a final rule. It is an operational standard, 
if you will. It just sets the conditions and requirements for 
Positive Train Control systems, but it does not mandate it.
    Mr. LaTourette. Ms. Strang also, the passenger 
survivability in a crash is influenced by a number of factors--
standees in a coach, for instance, can become projectile, 
harming or killing other passengers; the location of the crash 
also matters as to whether it is in an urban center where 
medical attention is more readily available or a rural setting. 
Is the FRA considering all of those factors as you look at 
passenger survivability?
    Ms. Strang. Yes. Actually, in 1999 we issued comprehensive 
standards on passenger crashworthiness that included emergency 
preparedness and egress types of standards, so that we would 
have available windows and doors that function well in an 
emergency and people can exit. We continue to work on passenger 
crashworthiness and survivability through the American Public 
Transportation Association, their passenger requirements group, 
that sets the industry standards for public transit. These can 
then be incorporated into the next revision of the passenger 
crashworthiness rule.
    Mr. LaTourette. It is my understanding, though, that your 
rulemaking may not include an examination of interior materials 
such as padding, is that right?
    Ms. Strang. No. We have done fire testing, and we have also 
done injury testing at tables.
    Mr. LaTourette. Right. That was one of my questions I 
think, the whole issue of whether
    Ms. Strang. Actually, table design is important. We have 
done tests where we took different types of tables and looked 
at how their edges were and how they were fixed. They are 
popular with commuters.
    Mr. LaTourette. Mr. Menendez, in his opening remarks, 
correctly called upon the issue of tank car safety. Can you 
tell us a little bit about what the FRA is doing relative to 
tank cars?
    Ms. Strang. Sure, I would be delighted to. FRA is currently 
undertaking tank car research that resulted from the Minot, 
North Dakota, accident in 2002. We are working with the Volpe 
National Transportation Systems Center and the AAR Tank Car 
Committee to do several things.
    One, we have to understand how tank cars fail when they are 
in a derailment. So we are doing a three-phase model that 
includes a physics model, a kinematics model, using finite 
element analysis, and then we will validate the model. Once we 
have a better understanding of how tank cars fail in 
derailments and collisions, we will be able to address the 
structural concerns through design.
    Mr. LaTourette. Later in the hearing when Mr. Pickett 
testifies, he expresses concern that the visual inspection of 
the track is sometimes conducted at too high of speeds. During 
your testimony, I think I wrote down that it was your feeling 
that 30 miles an hour was a safe speed. I believe in his 
testimony, I think he is proposing a limit of 15 miles an hour. 
Could you share your view on that?
    Ms. Strang. Certainly. The 30 miles per hour was with a 
high-speed automatic photographic system, not a human eye. I do 
not believe the human eye is designed to detect small cracks at 
30 miles an hour.
    Mr. LaTourette. And so what about his observation that he 
will make later that 15 miles an hour is more appropriate?
    Ms. Strang. It seems reasonable to me. But I am not on the 
regulatory side of things.
    Mr. LaTourette. Okay. Thank you very much. Mr. Menendez?
    Mr. Menendez. Thank you, Mr. Chairman.
    Ms. Strang, in your testimony you say that the data for 
2004 shows that the total accidents and incidents are down 3.9 
percent from 2003. However, the data that I have seen from the 
FRA website, which is the same data that Mr. Oberstar referred 
to in his statement, show that the total number of accidents is 
increasing. It showed that highway-rail incidents also 
increased from 2003 to 2004, and that the only other statistic 
that improved is something labeled ``other incidents.''
    Ms. Strang. It depends on which--there are a lot of 
different categories.
    Mr. Menendez. I have not gotten to my question yet.
    Ms. Strang. Oh, I am sorry.
    Mr. Menendez. So my question is, if we extracted out the 
accident category alone, what would the number be?
    Ms. Strang. I do not have that number with me, but I can 
provide it to you. I do know that collisions have increased. 
But the total train accident/incident rate has decreased. But I 
will provide those to you.
    [The information received follows:] 
    [GRAPHIC] [TIFF OMITTED] 21704.001
    
    [GRAPHIC] [TIFF OMITTED] 21704.002
    
    [GRAPHIC] [TIFF OMITTED] 21704.003
    
    [GRAPHIC] [TIFF OMITTED] 21704.004
    
    [GRAPHIC] [TIFF OMITTED] 21704.005
    
    [GRAPHIC] [TIFF OMITTED] 21704.006
    
    Mr. Menendez. Would you extract the accident category alone 
and then let the Committee know?
    Ms. Strang. Absolutely.
    Mr. Menendez. Thank you. What is the ``other incidents`` 
category?
    Ms. Strang. Other incidents are things like cows on the 
track, or an object that is there. It is not something that is 
normal.
    [The information received follows:]
    [GRAPHIC] [TIFF OMITTED] 21704.007
    
    [GRAPHIC] [TIFF OMITTED] 21704.008
    
    [GRAPHIC] [TIFF OMITTED] 21704.009
    
    [GRAPHIC] [TIFF OMITTED] 21704.010
    
    [GRAPHIC] [TIFF OMITTED] 21704.011
    
    [GRAPHIC] [TIFF OMITTED] 21704.012
    
    [GRAPHIC] [TIFF OMITTED] 21704.013
    
    [GRAPHIC] [TIFF OMITTED] 21704.014
    
    [GRAPHIC] [TIFF OMITTED] 21704.015
    
    [GRAPHIC] [TIFF OMITTED] 21704.016
    
    [GRAPHIC] [TIFF OMITTED] 21704.017
    
    [GRAPHIC] [TIFF OMITTED] 21704.018
    
    [GRAPHIC] [TIFF OMITTED] 21704.019
    
    [GRAPHIC] [TIFF OMITTED] 21704.020
    
    [GRAPHIC] [TIFF OMITTED] 21704.021
    
    [GRAPHIC] [TIFF OMITTED] 21704.022
    
    [GRAPHIC] [TIFF OMITTED] 21704.023
    
    [GRAPHIC] [TIFF OMITTED] 21704.024
    
    [GRAPHIC] [TIFF OMITTED] 21704.025
    
    [GRAPHIC] [TIFF OMITTED] 21704.026
    
    [GRAPHIC] [TIFF OMITTED] 21704.027
    
    [GRAPHIC] [TIFF OMITTED] 21704.028
    
    [GRAPHIC] [TIFF OMITTED] 21704.029
    
    [GRAPHIC] [TIFF OMITTED] 21704.030
    
    [GRAPHIC] [TIFF OMITTED] 21704.031
    
    [GRAPHIC] [TIFF OMITTED] 21704.032
    
    [GRAPHIC] [TIFF OMITTED] 21704.033
    
    [GRAPHIC] [TIFF OMITTED] 21704.034
    
    [GRAPHIC] [TIFF OMITTED] 21704.035
    
    [GRAPHIC] [TIFF OMITTED] 21704.036
    
    [GRAPHIC] [TIFF OMITTED] 21704.037
    
    [GRAPHIC] [TIFF OMITTED] 21704.038
    
    [GRAPHIC] [TIFF OMITTED] 21704.039
    
    [GRAPHIC] [TIFF OMITTED] 21704.040
    
    [GRAPHIC] [TIFF OMITTED] 21704.041
    
    [GRAPHIC] [TIFF OMITTED] 21704.042
    
    [GRAPHIC] [TIFF OMITTED] 21704.043
    
    [GRAPHIC] [TIFF OMITTED] 21704.044
    
    [GRAPHIC] [TIFF OMITTED] 21704.045
    
    [GRAPHIC] [TIFF OMITTED] 21704.046
    
    [GRAPHIC] [TIFF OMITTED] 21704.047
    
    [GRAPHIC] [TIFF OMITTED] 21704.048
    
    [GRAPHIC] [TIFF OMITTED] 21704.049
    
    [GRAPHIC] [TIFF OMITTED] 21704.050
    
    [GRAPHIC] [TIFF OMITTED] 21704.051
    
    [GRAPHIC] [TIFF OMITTED] 21704.052
    
    [GRAPHIC] [TIFF OMITTED] 21704.053
    
    [GRAPHIC] [TIFF OMITTED] 21704.054
    
    [GRAPHIC] [TIFF OMITTED] 21704.055
    
    Mr. Menendez. Okay. Positive Train Control has been on the 
NTSB's list of Most Wanted Transportation Safety Improvements 
since 1990. Why did it take the FRA 15 years to issue a final 
rule on PTC?
    Ms. Strang. That is a very good question. And since I am 
not on the regulatory side of things, I cannot answer. But I 
can have somebody provide the answer to you for the record.
    Mr. Menendez. If you would, I would appreciate it.
    [The information received follows:]
    [GRAPHIC] [TIFF OMITTED] 21704.056
    
    Mr. Menendez. Since you are not on the regulatory side, you 
are going to give me the same answer to one of my other 
questions, but I am going to ask it so that you get me an 
answer. You cite human factors as one of the causes at the very 
outset of your testimony. So I would also like to know when you 
have investigated 38 railroad accidents where PTC could have 
prevented or mitigated an accident, despite that it will save 
lives, the rule that you issued in March is voluntary and not a 
requisite for railroads. I would like to get an answer as to 
why the regulators did not insist on something that can be 
life-saving at the end of the day and dramatically reduce the 
number of incidents. So if you would get that for us as well.
    Ms. Strang. Yes, sir.
    [The information received follows:]
    [GRAPHIC] [TIFF OMITTED] 21704.057
    
    Mr. Menendez. Do you know about dark territory, is that 
something you can answer?
    Ms. Strang. I know what it is.
    Mr. Menendez. Okay. What can you answer for me?
    Ms. Strang. I can answer questions about technology.
    Mr. Menendez. Technology, okay. Let me move on to something 
else then.
    Mr. Chipkevich, when an accident occurs it is critical that 
the community, the railroad industry, its workers, and in some 
cases the victims are provided timely and accurate information 
identifying what caused the accident and what measures parties 
involved in the accident should take to prevent similar 
accidents from occurring in the future. How long does it take 
the NTSB to conduct an accident investigation? And why did it 
take you over two years to investigate and issue 
recommendations on the deadly accident in North Dakota? Why did 
it take you over three years to investigate and issue 
recommendations on the CSX freight tunnel derailment and fire 
in the Howard Street tunnel?
    Mr. Chipkevich. It is primarily the workload and the staff 
resources that we have had to be able to address and do the 
accident investigations. There was significant work in the 
Howard Street tunnel accident investigation we did because 
there was no clear-cut cause that we could identify for that 
accident. So we did extensive testing and additional work that 
did take an extended period of time in that particular 
accident.
    Mr. Menendez. So, in other words, if you had a greater 
staffing capability, we would truncate the time and get the 
results quicker, and we would get action, hopefully, quicker on 
that?
    Mr. Chipkevich. Yes, sir, that would help.
    Mr. Menendez. How many hearings has the NTSB held since 
2000, public hearings?
    Mr. Chipkevich. I can provide that for the record. We held 
a public hearing, we finished the last two days on the Macdona 
accident where we had a board of inquiry taking testimony from 
12 witnesses. We had also had a public hearing in the rail area 
on the Minot accident investigation. But I would certainly be 
glad to provide that information.
    [The information received follows:]
    [GRAPHIC] [TIFF OMITTED] 21704.058
    
    [GRAPHIC] [TIFF OMITTED] 21704.059
    
    [GRAPHIC] [TIFF OMITTED] 21704.060
    
    [GRAPHIC] [TIFF OMITTED] 21704.061
    
    [GRAPHIC] [TIFF OMITTED] 21704.062
    
    [GRAPHIC] [TIFF OMITTED] 21704.063
    
    Mr. Menendez. My information is it is only one. Now you 
have had some things called symposiums, but those are not 
public hearings. I would like to know the number so that we can 
respond to it in the future.
    Thank you, Mr. Chairman.
    Mr. LaTourette. I thank the gentleman. Mr. Miller?
    Mr. Miller. Thank you, Mr. Chairman.
    Ms. Strang, where does the FRA stand on the use of control 
coaches after the recent fatal crash of Metrolink? Would it not 
be safer to use a locomotive on the front of the train? I 
understand that Amtrak has even converted some old locomotives 
into control cars. They removed the diesel motor and use the 
space to basically carry baggage. A working locomotive is 
placed at the other end of the train to power it. Is this not a 
safer setup than lightweight control cars?
    Ms. Strang. That is a good question. Actually, we are 
conducting a study on that now. There is some debate over the 
Glendale incident, whether or not it could have been made worse 
by a locomotive because they are heavier and it adds mass to 
the crash. Those are all things that we are considering 
carefully, and we should be publishing a study by the end of 
the year.
    Mr. Miller. Okay. Can you give us some more details 
concerning what the FRA is doing on tank car safety.
    Ms. Strang. Actually, we have several things we are doing 
on tank car safety. One of them deals with emergency responders 
and making sure that they get emergency response information as 
quickly as possible. We are working through the emergency 
responder community, Railinc Operation Respond, and others to 
provide better communications infrastructure to get information 
to emergency responders that is accurate as quickly as we can, 
because the first several minutes of the emergency response are 
very critical.
    We are looking at tank car research that I talked about on 
the kinematics modeling, where we will be looking at tank car 
design to make tank cars more puncture-resistant and less 
likely to have any kind of failure during a collision or 
derailment.
    We are also looking at a spray-on coating that is known as 
"Dragon Shield" that has got the capability of self-sealing if 
it gets punctured, and it also adds impact resistance.
    Mr. Miller. They have recently included tables in passenger 
cars. I know you did a study on that. I have heard that really 
is dangerous and that it creates a less safe situation. What is 
your finding on that?
    Ms. Strang. It can be. The way that the table is fastened 
to the floor and the edges of the table, and whether or not 
they are resistant or flexible, really make a difference. So we 
have done tests on table configurations and expect to have 
standards and recommendations on how tables should be affixed. 
Tables are very popular with commuters. They like them a lot. 
So most commuter railroads like to have them.
    Mr. Miller. When are your studies going to be released, do 
you have any idea on that?
    Ms. Strang. We have conducted the tests on the tables, and 
I believe a report will be coming out later this year. But I 
can get back to you with the expected date.
    [The information received follows:]
    [GRAPHIC] [TIFF OMITTED] 21704.064
    
    [GRAPHIC] [TIFF OMITTED] 21704.065
    
    [GRAPHIC] [TIFF OMITTED] 21704.066
    
    [GRAPHIC] [TIFF OMITTED] 21704.067
    
    [GRAPHIC] [TIFF OMITTED] 21704.068
    
    [GRAPHIC] [TIFF OMITTED] 21704.069
    
    [GRAPHIC] [TIFF OMITTED] 21704.070
    
    [GRAPHIC] [TIFF OMITTED] 21704.071
    
    [GRAPHIC] [TIFF OMITTED] 21704.072
    
    [GRAPHIC] [TIFF OMITTED] 21704.073
    
    [GRAPHIC] [TIFF OMITTED] 21704.074
    
    [GRAPHIC] [TIFF OMITTED] 21704.075
    
    [GRAPHIC] [TIFF OMITTED] 21704.076
    
    [GRAPHIC] [TIFF OMITTED] 21704.077
    
    [GRAPHIC] [TIFF OMITTED] 21704.078
    
    [GRAPHIC] [TIFF OMITTED] 21704.079
    
    [GRAPHIC] [TIFF OMITTED] 21704.080
    
    [GRAPHIC] [TIFF OMITTED] 21704.081
    
    [GRAPHIC] [TIFF OMITTED] 21704.082
    
    [GRAPHIC] [TIFF OMITTED] 21704.083
    
    [GRAPHIC] [TIFF OMITTED] 21704.084
    
    [GRAPHIC] [TIFF OMITTED] 21704.085
    
    [GRAPHIC] [TIFF OMITTED] 21704.086
    
    [GRAPHIC] [TIFF OMITTED] 21704.087
    
    [GRAPHIC] [TIFF OMITTED] 21704.088
    
    [GRAPHIC] [TIFF OMITTED] 21704.089
    
    [GRAPHIC] [TIFF OMITTED] 21704.090
    
    [GRAPHIC] [TIFF OMITTED] 21704.091
    
    [GRAPHIC] [TIFF OMITTED] 21704.092
    
    [GRAPHIC] [TIFF OMITTED] 21704.093
    
    [GRAPHIC] [TIFF OMITTED] 21704.094
    
    [GRAPHIC] [TIFF OMITTED] 21704.095
    
    [GRAPHIC] [TIFF OMITTED] 21704.096
    
    [GRAPHIC] [TIFF OMITTED] 21704.097
    
    [GRAPHIC] [TIFF OMITTED] 21704.098
    
    Mr. Miller. Thank you. I yield back, Mr. Chairman.
    Mr. LaTourette. I thank you. Ms. Johnson?
    Ms. Johnson. Thank you very much. In the accident in South 
Carolina, it raised a number of questions about Dark Territory. 
Has there been some technology that has been used to maybe deal 
with Dark Territory?
    Ms. Strang. Actually, there have been several things. First 
of all, we issued something called a broad agency announcement, 
which is a funding mechanism, looking for people to come to us 
with proposals on how to cure this problem. So we are looking 
for ways that we can make sure that switches are in the correct 
position even in dark territory and that appropriate alerts can 
be given to the train crews and others.
    Ms. Johnson. You indicated that most of the accidents are 
caused by human factors. Can you name others that have been 
prominently noted?
    Ms. Strang. I am sorry. I am not sure I understand your 
question.
    Ms. Johnson. You indicated that most of the accidents are 
caused by human factors. Has there been some observation that 
makes the human factors more common, and if so, has there been 
the application of any technology that can solve that, or are 
you still looking?
    Ms. Strang. There are technical solutions to human factor 
accidents. As Mr. Chipkevich mentioned, Positive Train Control 
is one of them. Basically, if you are relying on a person that 
does not have a redundant backup system, technology is probably 
going to provide the best solution. So we are looking at ways 
to improve switch position indicators, because that is the 
second-leading cause of accidents, and also track inspection 
information that can be gathered through better technologies. 
Track causes are the second-leading cause of train accidents.
    Ms. Johnson. What is the infrastructure like with the 
rails, tracks?
    Ms. Strang. Well, do you mean how much is there?
    Ms. Johnson. Well, what is the age? Do they need some type 
of attention or repair or change?
    Ms. Strang. Okay. The railroad has been around for a long 
time, 180 years, so there are various ages of track and rail 
components throughout the system. Railroads have made a lot of 
efforts to improve the strength, or the poundage, of the rail, 
going up to a heavier weight, up to 136 pounds, as they have 
increased axle loads. And it is a combination, I believe 
probably Dr. Samuels will talk about it a little more, that it 
is a combination of heavy axle loads and heavy rail that are 
needed to provide safe transportation.
    [The information received follows:]
    [GRAPHIC] [TIFF OMITTED] 21704.099
    
    Ms. Johnson. I am curious, because it seems to me that we 
are hearing more and more about rail accidents, and I was 
trying to see if there was a way in which to focus in on the 
common cause and if there was some technology or an improvement 
of the infrastructure or whatever to see if they could be 
avoided.
    Ms. Strang. I think there is. I believe some of the things 
we discussed today will go towards reducing those accidents as 
soon as we can get them deployed and out in use.
    Ms. Johnson. Thank you very much.
    Mr. LaTourette. I thank the gentlelady.
    Ms. Strang, before I yield to Mr. Graves, for the benefit 
of the record and maybe some in the audience, could you just 
tell us what Dark Territory is.
    Ms. Strang. Dark territory is territory on a railroad that 
does not have a signal system, so you usually rely on track 
warrants or a paper system to control the operation of the 
train.
    Mr. LaTourette. Thank you very much. Mr. Graves?
    Mr. Graves. Thank you, Mr. Chairman.
    What I am curious about, and you barely touched on it in 
your written testimony with some of the private initiatives 
being undertaken, I am interested in the electronic train 
management system, which is an overlay system that the BNSF is 
in the middle of. Can you talk to me about an overlay system, 
how that works? Can you also tell me how involved you are in 
that, and also where we are in that process as far as 
development goes?
    Ms. Strang. Sure. Okay. There are a number of efforts 
underway in the private sector. BNSF has the ETMS, or 
Electronic Train Management Systems; CSX is using 
Communications-Based Train Management, CBTM; the Alaska 
Railroad is pursuing another system. In the private sector, not 
a government partnership like the North American Joint Positive 
Train Control Program, BNSF's project is the furthest along.
    An overlay system is a non-vital system that uses a 
communications base to control trains. It has an office 
segment, a communications part, equipment on the locomotive, 
and wayside detectors. BNSF's project is 130 miles in Illinois, 
I think it is around Beardstown. They began their project a 
couple of years ago; right now, they are at phase two of a 
three-phase test. So they are running trains with the train 
control system turned on under a waiver from FRA. FRA has been 
involved in helping them test in all phases of it. We actually 
have a test monitor that is out there riding trains with them 
all the time. We are also doing a human-machine interface study 
with them, where we are looking at the human aspect of their 
interface with the system.
    Mr. Graves. What do you mean by non-vital, you said non-
vital?
    Ms. Strang. "Non-vital" means that it is an overlay. The 
existing train control components are all still there: they are 
not taken away.
    Mr. Graves. Talk to me about cost. Are these not a little 
bit less complex?
    Ms. Strang. They are less costly than a vital system in 
some ways; they are new. Because you do not have a vital 
system, some of the testing requirements are a little bit less, 
and the component communications part of it costs much less.
    Mr. Graves. But there are, and I guess what I was getting 
at as much as anything else, there are a lot of things out 
there besides just what you all are doing, that the private 
industry is doing a lot to try to alleviate some of their 
accidents and doing some of the things that are going on, too.
    Ms. Strang. That is correct.
    Mr. Graves. So there is a pretty heavy initiative going on?
    Ms. Strang. That is correct.
    Mr. Graves. Thank you.
    Mr. LaTourette. Thank you, Mr. Graves. Ms. Norton?
    Ms. Norton. Thank you very much, Mr. Chairman. I appreciate 
the opportunity to sit with this Subcommittee. Of course, I am 
a member of the full Committee.
    I am sure that all of you are aware that as we speak there 
is a hearing going on which I think really says a great deal to 
us, should send a message to us about Federal inaction post-9/
11 on rail and freight.
    The District of Columbia, one jurisdiction, unable to see 
any action by the Federal Government, but also seeing freight 
carrying hazardous substances going within four blocks of the 
Capitol of the United States and throughout heavily congested 
neighborhoods, took action on its own and passed a law and said 
you have got to reroute that stuff. The Railroad Administration 
said, well, we do when there is a big event in the District of 
Columbia such as on the Mall. But of course when Congress is in 
session and the rest of that is going on, we had no evidence 
that had been done.
    Some of us tried to get hearings. We wrote to Secretary 
Ridge and tried to get information. No information. The judge 
indicated that perhaps this thing could be negotiated and the 
information could be shared with the District and they would be 
able to understand that something had been done. The Government 
did not want to do that.
    So the judge looked at it and the judge must have said the 
equivalent of is this it, because here you had a Federal 
District Court judge ruling against the railroad in this 
instance, although everybody thought it was a slam dunk on 
interstate commerce grounds. The judge found when there is a 
gap in the law and the Federal Government sits there and takes 
no action, then it must mean that a local jurisdiction can 
move.
    Many of us in the Congress had thought that the better way 
would be to look at dangerous freight traveling throughout the 
United States and to try to look at all the options to try to 
in fact see what could be done. And as far as I can tell, the 
Railway Administration, the Department of Homeland Security 
have taken no action whatsoever. This is post-9/11, when 
everybody is rushing to take action to shore up various modes 
of transportation. We are talking about the transportation that 
most people use--rail, and of light rail, subways, and the 
rest.
    Yesterday at the markup of the Homeland Security 
Authorization, there were two provisions--one was report 
language, and one was a provision actually added. One had to do 
with passenger trains, to say, that would require DHS, 
presumably you to do what can only be called the basics, to 
take what you have learned, and I know that there is great deal 
of consultation and work that has been done with the railroads, 
and disseminate what best practices should be post-9/11.
    And the other was something that of course we have already 
done with air travel, and that is to take what you know and 
disseminate it to operators of trains so that they know how to 
prepare employees and the public to understand what to look 
for. Now here we are four years after 9/11 and we are asking 
part of our Government that regulates trains to do these 
basics.
    On freight, there is probably going to be report language 
on matters like pre-notification, for example, of local 
jurisdictions when hazardous substances come through. Our own 
Fire Department here in the District of Columbia, you would 
think that if you did not notify anybody you would be notifying 
the EMSes, said, when the council bill was being shepherded 
through, he did not have a clue as to what was coming through 
so that he could at least be alerted in case something 
happened. There may be language on setting protocols for 
effective communication between the authorities and operators, 
training for employees so that they know what to do, the kind 
of training that has taken place with respect to air travel.
    I simply would like your response about the inaction of DHS 
on trains, especially freight and passenger, especially when 
compared with a great deal of action that has been taken within 
DHS, TSA, et cetera, with air travel, and especially 
considering large numbers of people who use rail travel and the 
extent to which our country is dependent upon the transport of 
dangerous toxic substances.
    No one wants to stop it from happening, but, again, 
unrebutted testimony that one car right here in the national 
capital, one car successfully attacked could emit gases that 
would travel 14 miles throughout the entire region, causing 
100,000 deaths within a half hour if the wind is going in the 
right direction. That is what caused a local jurisdiction to 
move. And you are going to see, if there is continued Federal 
inaction, you are going to see people popping up all over the 
United States saying I am not going to sit here and wait for 
something to happen.
    So I would simply like to take this opportunity to get your 
response to what has happened here in the District of Columbia, 
and to ask you what you intend to do to begin to take the kind 
of action for trains and freight post 9/11 that we have seen in 
air travel.
    Ms. Strang. Thank you. We are not part of the Department of 
Homeland Security or the Transportation Security Administration 
that has the lead in this effort. We are taking numerous steps 
to make---
    Ms. Norton. Is this the Railway Administration?
    Ms. Strang. This is the Federal Railroad Administration.
    Ms. Norton. Well, the Federal Railroad Administration has a 
very heavy lead in what I am asking you about.
    Ms. Strang. We do, but it is through the Toxic Inhalation 
Hazard Project that is managed by the Office of Safety. I will 
be very happy to get a response for you from them. It is not 
something that I have expertise in.
    [The information received follows:]
    [GRAPHIC] [TIFF OMITTED] 21704.100
    
    [GRAPHIC] [TIFF OMITTED] 21704.101
    
    [GRAPHIC] [TIFF OMITTED] 21704.102
    
    [GRAPHIC] [TIFF OMITTED] 21704.103
    
    Ms. Norton. Mr. Chairman, I just want to say in closing, 
you see the answer was, duh. When I think Mr. Quinn was Chair 
of this Subcommittee, the Railway Administration was before us 
and I sat in on a hearing. This was before South Carolina. And 
in the process of examining someone like yourself from the 
Railway Administration, I asked the Chairman if before the end 
of the year he would agree that the Railway Administration 
would provide a plan, particularly given the considerable work 
they had already done, to the Chairman. Then Chairman Quinn 
went on record and said I want it, and I want it before the end 
of the year.
    And Mr. Chairman, as you take over the chairmanship of this 
Subcommittee, I want you to know that no such plan has come 
forward.
    I think it is a clear and present danger to our country. 
And I think, frankly, that what is happening on freight and 
passenger travel is more of a security risk today than what we 
might expect on air travel, because we at least have begun to 
take preventative actions there and we see no consistent 
preventative action on the part of the Railway Administration 
and others who should be involved. Thank you very much, Mr. 
Chairman.
    Mr. LaTourette. I thank the gentlelady very much. I will 
check with the staff as to what that status was last year and 
be happy to follow up with the FRA.
    Just a couple of observations. On a personal level, my fear 
has always been when we create these parallel universes, that 
is, a Federal Rail Administration and a Department of Homeland 
Security that seems to be like an octopus, we have several 
poorly funded agencies all running around in different 
directions rather than dealing with what I consider, and I know 
the gentlelady when she was the distinguished Ranking Member of 
our last Subcommittee assignment, consider an all-hazards 
approach.
    You also get silly regulations, such as the folks that 
thought up why do we not take off the hazardous material 
warning labels on tanker cars, so that nobody knows, especially 
the firefighter who is first on the scene, that he or she is 
actually there to clean up chlorine, so that we can trick the 
terrorist. I think that is an example of something stupid. And 
lastly, I hope that the District of Columbia's action is not 
replicated across the country. I have difficulty finding out 
why the judge was able to find it not at odds with the commerce 
clause, and we can have an honest disagreement about that.
    But I think the gentlelady's points are well taken, that we 
have spent a lot of time making sure that terrorists cannot 
take over airplanes, we have spent precious little time dealing 
with train travel in this country.
    There is a vote on. Mr. Sodrel, do you think that you have 
less than five minutes of questions, or should we recess and 
come back? It is your pleasure.
    Mr. Sodrel. We are about to vote. I guess I could ask the 
questions and get answers in writing, if necessary.
    Mr. LaTourette. If that is suitable with you. And that 
brings up something Mr. Menendez has asked me to do as well, 
and that is ask unanimous consent that all members of the 
Subcommittee have the same 30 days which we had under the 
previous unanimous consent request to submit additional 
questions to this and the remaining panels, and we would 
appreciate the answers when you can get them to us. Thank you 
very much.
    That being said, there is a vote on the House floor. We 
will stand in recess and return immediately after the vote.
    [Recess.]
    Mr. LaTourette. We are going to bring the Subcommittee back 
into order. The good news is I think this vote we just had on 
the House floor may be the last for a while. There seems to be 
a problem with the vote count on the Budget Resolution. So I 
think we are good to go for not only the rest of this panel, 
but also the other two panels. So, hopefully, we will not be 
interrupted.
    Before we left, Mr. Sodrel, you were kind enough to say 
that you might want to submit the questions. But we have held 
the first panel back, so fire away.
    Mr. Sodrel. Thank you, Mr. Chairman. You know, in the 
highway industry we have statistics that we use on accidents. 
There are accidents, incidents, then there are DOT reportable 
accidents. DOT reportable would be ones where the vehicle is 
towed, it cannot be driven away on its own; you have an injury 
or a fatality. I have heard that the accidents are up, and I 
have heard that the accidents are down on the railroad.
    So my question is, how many deaths do you have per 
passenger mile traveled on railroads? How does that compare 
with intercity motorcoach, or air travel, or private 
automobile, or some other standard where you have deaths per 
passenger mile? Do we know? And if we do not, if you can get 
the answer, I would appreciate it.
    Ms. Strang. I think I do. I just need to look to see if I 
have got it.
    Mr. Sodrel. I just occurs to me, we kill somewhere north of 
40,000 people a year in automobiles. It seems to me that 
railroad travel
    Ms. Strang. Over the past five years, there have been 22 
passenger fatalities. So the rate is very low. But I will have 
to get back to you with the actual rate per million passenger 
miles.
    [The information received follows:]
    [GRAPHIC] [TIFF OMITTED] 21704.104
    
    [GRAPHIC] [TIFF OMITTED] 21704.105
    
    Mr. Sodrel. Thank you. Thank you, Mr. Chairman.
    Mr. LaTourette. I thank you very much. And again, subject 
to the questions that Mr. Menendez had where you were going to 
supply some additional information, and also the unanimous 
consent request we made a little bit earlier, there may be 
additional questions coming your way from other members of the 
Subcommittee or from members of the Subcommittee that were 
here. We would appreciate your timely response.
    Also, when Ms. Norton was here, we will follow up at a 
staff level here on the Subcommittee relative to what Mr. Quinn 
may have asked of the FRA during the last Congress. But if you 
could sort of poke around the agency and if you can figure out 
what it is he was looking for and let us know, we would 
appreciate that as well.
    So we thank you, and you go with our thanks.
    It is now time to hear from our second panel. Our second 
panel is comprised of Mr. Edward Hamberger, who is the 
President of the Association of American Railroads; Dr. John 
Samuels, who is the Vice President of Operation Planning 
Support for Norfolk Southern; and Mr. William Pickett, who is 
the President of the Brotherhood of Railroad Signalmen. I thank 
you all for coming. We have received all of your written 
testimony. If you could summarize your testimony to the best of 
your ability, we would appreciate that.
    Mr. Hamberger, you are on.

  TESTIMONY OF EDWARD R. HAMBERGER, PRESIDENT, ASSOCIATION OF 
  AMERICAN RAILROADS; JOHN SAMUELS, VICE PRESIDENT, OPERATION 
    PLANNING SUPPORT, NORFOLK SOUTHERN; WILLIAM D. PICKETT, 
          PRESIDENT, BROTHERHOOD OF RAILROAD SIGNALMEN

    Mr. Hamberger. Thank you, Mr. Chairman. I appreciate the 
opportunity to participate in your first hearing as Chairman of 
the Railroad Subcommittee. And I would like to echo Mr. 
Oberstar's opening comments, that it is indeed very appropriate 
that the first hearing focus on railroad safety and security. I 
would like to make a few brief opening remarks and then 
transfer my time to Dr. Samuels to go into a little bit more 
detail on some of the new technologies emerging.
    I would like to also thank the Committee for the leadership 
and vision it has shown during the reauthorization of TEA-21. 
There is no more vexing safety problem faced by railroads than 
that posed by grade crossing accidents and trespassers. We 
would like to thank the Committee for its strong support for 
increased funding for the Section 130 Grade Crossing Safety 
Program, and we ask you to continue to demonstrate such support 
in conference with the Senate.
    Nothing is more important to the Nation's freight railroad 
than the safety of their employees, customers, and the 
communities in which we operate. That is demonstrated by the 
scope and intensity of the industry's safety efforts. These 
efforts have resulted in dramatic improvements in railroad 
safety.
    Since 1980 the train accident rate has been reduced by 65 
percent, and the employee casualty rate has declined by 78 
percent. Last year, 2004, in fact was the safest in history in 
terms of both the number of employee casualties and the 
employee casualty rate.
    Let me try to address Congressman Sodrel's comments and Mr. 
Oberstar's. Mr. Oberstar is, in fact, correct that the absolute 
number of accidents has gone up in 2004 over 2003, but the rate 
of accidents, the rate as measured in million train miles, has 
gone down slightly. Similarly, while the number of highway-rail 
incidents has gone up, the incident rate, as measured in terms 
of million train miles, is the lowest on record, and that rate 
does not take into account the fact that highway traffic has 
also been increasing.
    We work continuously to improve all aspects of rail safety, 
including that related to hazardous materials. Railroads move 
about 1.8 million carloads of hazardous material annually, and 
99.998 percent reach their destination without a release due to 
an accident. Rail hazmat accident rates are down 90 percent 
since 1980.
    We work continuously to assist communities in preparing 
emergency response plans, we provide emergency training for 
emergency responders, work with tank car owners, users, and 
builders to improve tank car safety, and work with rail labor 
to try to identify ways to improving operating safety.
    The source of much of our past success and a critical 
foundation for future gains is the implementation of new and 
improved technology. The industry funds an extensive research 
and testing program centered at the Transportation Technology 
Center in Pueblo, Colorado, which we operate under contract to 
the FRA. It is widely considered to be the finest rail research 
and test facility in the world, and the crash tests that you 
saw the tapes of from Ms. Strang's testimony were actually 
performed at Pueblo at TTCI. And I would echo her invitation to 
this Subcommittee to visit Pueblo either independently or as 
part of the next crash test in February.
    Let me now turn over two minutes and fifty-three seconds to 
Dr. John Samuels to testify on behalf of the AAR about some of 
the advances in rail technology. He is senior Vice President, 
Operations Planning and Support with Norfolk Southern, and just 
as importantly, serves as Chairman of the industry's Railway 
Technology Working Committee.
    Mr. LaTourette. Dr. Samuels, thank you very much for 
coming. The last time I saw you you gave a presentation that 
included coefficient of frictions and yaws and things like 
that. Maybe if you could dumb it down for me today, I would 
appreciate it very much.
    [Laughter.]
    Mr. LaTourette. But thank you for coming.
    Mr. Samuels. Thank you, Mr. Chairman. It is a privilege to 
be here today with you. I would like to talk a little bit about 
the science behind safety in railroading.
    Those of us in the scientific community that have dedicated 
our lifetime to making railroads safer for everyone appreciate 
the time we are going to have to talk to you about some of our 
advanced technologies. Time does not permit me to cover the 
wide variety of things we are doing, and I echo what Ed said, 
but I certainly would personally love to be out at TTCI when 
you and your Committee visit TTCI to be able to take you 
through all the good things that we are doing in terms of 
improving railroad safety.
    Let me start at the beginning, though, for today. The first 
slide I want to show you is a slide that shows the wheel-rail 
interface. You might think it is interesting that I would show 
this slide. But in my mind this is the most important slide to 
understand if you want to understand the foundations of safety 
on railroading.
    You can see from this slide, which is a cross-sectional 
view of a wheel-rail interface, the red area is the wheel, the 
blue area is the rail. You notice it is labeled ``vertical 
force'' and ``lateral force.'' There are two major forces that 
we must contend with and control in railroading to control the 
safety of the environment, and that is those two forces. You 
will see from this slide also that we have above rail programs 
called Advanced Technology Safety Initiative, ATSI, which is 
from this interface upward into the railcar, including the 
wheel set and the suspension system, and then we have a similar 
set of initiatives from the rail down, which is called 
Performance Based Track Standards. Today, I am going to give 
you a view of the most advanced technologies we are working 
with and the reasons why we are working with those.
    I bring to your attention first this cross-section of a 
piece of rail. What we really have at this interface is this 
rail in interfacing with the wheel does so, and I am going to 
put just a dime on the top of the rail surface here. All the 
stresses generated by the railcar go through an area the size 
of a dime. And in railroading today the stresses that go 
through there is 36,000 pounds per wheel set, on average.
    So we put the weight of approximately seven large SUVs 
through that dime into the rail infrastructure. And through the 
life of the assets, both the wheel and the rail, what we need 
to do is to control, believe it or not, that contact patch. One 
of the challenges of engineering science in railroading is to 
make sure that patch, when it starts out with new wheels and 
new rails and is the size of a dime, stays the size of a dime. 
Because if that contact patch varies or gets smaller, the 
stress goes up exponentially that is transmitted from the wheel 
to the rail. It is very important to do that.
    Now you see this cross-sectional rail. When we wear a rail 
out the ultimate wear-out rate depends on the strength of the 
rail and the entire track system. But this is a piece of rail 
that is at the condemning limit and is worn out. You can see 
that the geometry of the head is very much different than a 
brand new piece of rail. In a rail's life between brand new and 
this condition, we continuously monitor the rail and we look 
for things that will cause that rail to fail. And I am going to 
cover some of the latest technologies both from a rail 
standpoint and a wheel standpoint.
    On the next slide I would like to show you what we are 
trying to prevent. This slide is a picture of a fractured 
wheel. So let us talk about the wheel up for just a moment. 
This is a fractured wheel set. This is a real wheel that broke 
on our railroad. We did a complete metallurgical analysis of 
this wheel and it turns out in the metallurgical analysis that 
a small crack initiated at a defect in the casting. This wheel 
was about 12 years old when this occurred. So these wheels can 
stay out a great length of time before a crack initiates. There 
is a whole body of science on crack initiation and growth. In 
this particular case, the crack over time perpetuated to the 
point where the stress at the wheel-rail interface that was 
transmitted up into the wheel caused the crack to grow to a 
point where the wheel failed.
    One of the sciences we are trying to look at is, and it has 
been brought to your attention here, that many of these cracks 
that first initiate and grow cannot be seen by the human eye. 
And so no matter how hard you inspect these from a human 
standpoint, you cannot find them. So I want to tell you a 
little bit about the science we are using to get to the vital 
few areas where the human being really does not help that much 
any more and we have to use science.
    On the next slide, I portray for you the latest in laser 
acoustic testing. Now, let us keep it simple, like you said. 
What we have here is the diagram and in the upper left is a 
cross-section of a wheel. The little rectangle above it is a 
laser. It is a similar image on the right-hand side except you 
can see the little piece of a crack there that is growing at 
the surface of the wheel. The principle involved here is very 
simple: if these cracks grow and perpetuate through the wheel 
and ultimately fail, how can we find the crack before the 
failure occurs. What we do is we hit the wheel with a laser, 
the laser creates a mechanical pulse through the wheel.
    The image down below on the left shows a very strong return 
signal to the transducer, which says that the wheel is sound. 
The image on the right down below shows that the initial 
pulsing of the wheel with the laser was dispersed, 
significantly increasing that there is a crack in the wheel. So 
we are using this technology, which is brand new, by the way, 
to look at better ways of finding cracks in the wheel.
    On the next slide is our demonstration project at TTCI. To 
impinge the laser on the wheel and then to get the reflected 
sound, you have to follow the wheel as the railcar rolls by the 
transducer. So we have actually built a prototype system where 
we have a carriage that does the laser impingement and follows 
with the transducers as the wheel rolls over the rail, because 
we cannot find these things productively and efficiently unless 
we do it dynamically as the car rolls. And so we are working on 
this technology.
    While we are still speaking about the wheel, let us talk 
about this patch the size of a dime. If a wheel wears non-
uniformly, that patch can get very small at the contact point. 
Now the picture on the right shows a wheel that is worn to what 
we call a hollow. That is a natural phenomena, the wheel is 
softer than the rail. And so in railroading the wheel does 
prematurely wear out.
    But what we need is technologies that will allow us to 
watch the wheel wear-out and pick the wheel off the car and 
remove before any accident occurs because of that geometry. The 
picture in the lower left-hand side shows a hollow wheel riding 
on a rail. If you look closely, you can notice that when the 
wheel is hollowed only a piece of the wheel contacts the rail. 
That creates a contact patch that is about one-quarter of the 
size of a dime, which increases the stress state of the 
railroad and can cause potential damage and failure of 
components.
    Now, how do we find hollow wheels? If we put human beings 
under the rail cars when they are stationary, it is very labor 
intensive and, quite frankly, in all kinds of weather and 
conditions it is very difficult to do. We are using new 
technology here. In the left-hand picture in this chart you see 
a bunch of lasers and laser cameras. In the lower right-hand 
picture with the red diagnostics, you see that what we do is we 
shine a laser on a wheel on a train going 50 miles an hour over 
this detector.
    The laser image is captured on cameras digitally and we 
rotate that image in three dimensional space, and within 
milliseconds we do a complete dimensional check of the wheel 
while the train is going over the detector at 50 miles an hour. 
And this development is now being put in place on railroads and 
will be used to watch wheels as they wear out.
    We also have, on the next slide, a train going over what we 
call a wheel impact detector. This is some transducers in the 
track that measure the vertical force that the wheel exerts on 
the track all around its circumference. We can pick out heavy 
hitting wheels that cause excessive stresses and route those 
cars to the car shop for wheel removal before they do damage or 
cause a derailment.
    Also on this slide you can see some boxes there in the 
lower left-hand side. That is an acoustical detector. While we 
are checking the vertical impact load of the wheel, we can also 
check whether the bearing is going bad. Right now on the 
railroad every 20 miles we have an infrared detector that looks 
at heat for a bearing going bad. Sometimes that is too late. 
And so what we try and do is find bearings before they fail. 
This is an acoustical detection system. Here is the frequency 
which we have correlated to defects in the wheel. And so we 
will just play one of these to show you what it sounds like.
    [Audio presentation.]
    Mr. Samuels. Now, if you have not heard that lately, that 
is a cupsball on the wheel. That says that the wheel bearing 
has a fretted surface that is beginning to fail. We can find 
through these sounds, believe it or not, bearings that are on 
their way to failure but nowhere near failing. And so we can 
take them out of service early.
    On the next slide what I am showing you is that we have now 
put these detectors I have told you about into a network of 
detectors in the United States. All railroads have a standard 
detector design. We have deployed these detectors nationwide 
and we are in the process of gathering all this data and 
putting it into one computer and accumulating it by rail car, 
by wheel, by axle.
    And so what we have in the next two to three years is we 
will have a system in place to actually watch rail cars wear 
out over their lifetime, understand the stresses that they 
cause at the wheel-rail interface, that contact patch, and 
control those forces.
    Finally, I would just like to talk about one thing above 
the topper rail. If you look at the wheel rail interface, a lot 
of the forces that are transmitted, are transmitted on curves. 
I will show you the worn rail, and this comes from a curve, 
because the geometry is very different.
    We have recently developed top of rail lubrication, which 
is an inert material that is put on the top of the rail. As you 
can see on the upper right hand side, you only put a mono-layer 
of this lubricant on the rail. It changes the coefficient of 
friction, and Mr. Chairman, you said, I love coefficient of 
friction, as you know. It actually has been found to cut the 
lateral forces on curves by 40 percent. That is being 
perfected.
    The next slide is just some data that shows you that in 
taking gauge widening on the rail, the actual spreading of the 
rails, which can cause derailments if it is not controlled, in 
actually looking at that, we have data over a year's period to 
show that when you lubricate the top of rail and change the 
coefficient of friction, we have actually gauge widening that 
has occurred on a very severe curve and in coal territory in 
West Virginia.
    Then finally, I would just like to say that we are 
multiplying the scientific effect of these various detectors, 
by taking what we learn from this laser acoustics in the wheel 
that I just showed you, and we are looking at rail, as you see 
here.
    Here, this rail has a vertical split or crack in it. A 
human being inspecting the track could not find this crack. But 
what we are doing is, we are perfecting that laser acoustics, 
so we can run down the track and find that accurately, every 
time. That is just some of the advance science that we are 
using to improve railroad safety. Thank you very much.
    Mr. LaTourette. Dr. Samuels, thank you very much, that was 
a very good use of Mr. Hamberger's two minutes and 54 seconds.
    [Laughter.]
    Mr. LaTourette. Mr. Pickett, thank you for coming, and we 
look forward to hearing from you.
    Mr. Pickett. Thank you, Mr. Chairman and members of the 
Committee. It is an honor for me to testify today on new 
technology and rail safety. It is a subject that is of great 
concern to this country and to all of our the employees on the 
Nation's railroads.
    Throughout our entire existence, the BRS and other rail 
unions have dedicated themselves to making the railroad work 
place safer, not for just rail workers, but also for the public 
at large.
    The rail industry is moving more freight with fewer 
employees than at any time in the history of railroading. 
Through mergers and the railroad management's never-ending 
quest to eliminate workers, railroad staffing levels are at an 
all-time low, and in some crafts, the numbers continue to drop.
    Those railroad employees that are left are working longer 
hours, and for many days at a long stretch at a time. A 12 to 
16 hour day is not unusual for a railroad worker, and in many 
cases, it is the norm.
    On March 7th of this year, the Federal Railroad 
Administration issued the Final Rule for the Development and 
Use of Processor-Based Signal and Train Control Systems. With 
this Final Rule, FRA is issuing a performance standard for the 
development and use of processor-based signal and train control 
systems. The rule also covers system which interact with 
highway-rail grade crossing warning devices.
    I want to say personally that this change is a great step 
in rail technology. Signal systems currently in use today are 
designed to protect the safety and integrity of the railroad's 
operations on a section of track that provides for broken rail 
protection, track defects, track obstructions, proper switch 
and derail alignment protection, route integrity protection, 
and protection against train collisions.
    Signal systems are designed to mitigate the dangers caused 
by human error and acts of vandalism or terrorism. Clearly, it 
is in the best interest of the railroad and the local residents 
to have the protection of a signal system.
    A good example of the benefits of a signal system can be 
seen when we look back to January 6th of this year. The 
derailment that many of us have talked about today happened in 
Graniteville, South Carolina, which the preliminary 
investigation has indicated was a result of an improperly 
aligned switch. Nine people died, 318 needed medical attention, 
and 5,400 residents within a one mile radius of the crash site 
were forced to evacuate.
    The segment of the track where the accident occurred was 
called Dark Territory. A basic signal system would have 
prevented this accident. A switch monitoring device would have 
noted that the hand throw switch was not properly aligned, and 
the train would have had a stop signal.
    The BRS does not believe that improper planning by the 
railroads and their failure to properly maintain a signal 
system can be reasons for the FRA to grant a waiver request to 
increase the amount of non-signal territory in our Nation's 
railroads.
    Positive train control systems are just one facet of the 
signaling revolution that is occurring. Many current signal 
systems benefit from the changing technology. We must work to 
ensure that any new technology that the railroad industry 
contemplates to implement, that the proper risk analyst and 
proper steps are taken to make sure that the new devices 
introduced do not create more new hazards than we eliminate.
    The rail unions consider it equally important to provide 
advanced training and education to improve the skills of the 
professional men and woman that install the safety devices on 
our rail systems.
    In addition to craft-specific training, security training 
must be mandated. While some rail carriers might claim progress 
in this area, I have talked to too many workers who are not 
receiving any training, or might be allowed to watch some video 
that tries to be a one-size-fits all.
    The railroads transport the most toxic and dangerous 
materials in the country. Most every freight train in the 
United States transports some types of hazardous material. The 
train crews are given very limited training in understanding 
what to do in case of a hazardous material leak or explosion.
    After 9/11, each railroad was required to develop and 
implement security plans. The Transportation Security 
Administration has apparently approved most of the plans on the 
railroads. The problem is that the employees have never been 
brought into the loop.
    The bottom line is that the TSA and the railroads must 
promptly begin an intense training program to educate and 
prepare railroad employees to recognize potential terrorist and 
safety security risks.
    In addition to training, we must also ensure that workers 
who report and identify a security risk will not face 
retribution or retaliation from their employers. A rail worker 
should not have to choose between doing the right thing on 
security and his or her job.
    If Congress considers rail security legislation, it must 
address this problem, by strengthening the current whistle 
blower protections. Over three and-a-half years have passed 
since 9/11, yet amazingly little has been done to secure our 
Nation's transportation network, especially in rail.
    Sufficient resources have not been allocated. Common sense 
requirements have not been imposed. Too often, employees and 
their unions have never been enlisted in the process. Amtrak 
alone requires $110 million in one-time security upgrades.
    One way that we can improve the infrastructure inspection 
is to direct the Secretary to issue rules requiring that no 
visual track inspection be conducted from a vehicle traveling 
at a speed of more than 15 miles per hour.
    The incorporation of a nationwide telephone notification 
system would greatly improve safety for our Nation's grade 
crossing signal system. This Nationwide telephone notification 
system could also be used by anyone to report derailments or 
other events that affect safety and security on the property.
    The Transportation Security Administration is spending $4 
billion this year on aviation security, an investment that we, 
of course, support. But passenger rail and transit are being 
left with just $10 million for their security.
    There are over 100,000 miles of rail in the United States, 
and 22,000 miles of it are used by Amtrak in 46 states and the 
District of Columbia. New technology will not cure all that is 
wrong in the rail industry. There is much to accomplish to make 
the Nation's railroads safer for communities across the country 
and for our rail employees.
    Experience teaches us that it is Congress that must provide 
the leadership to make safety a reality. I hope we can work 
with you in seeing that the improved safety practices become a 
reality. Thank you, Mr. Chairman.
    Mr. LaTourette. I thank you very much, Mr. Pickett. Your 
last observations, I certainly share, and I suspect most of the 
folks on the Subcommittee share. It occurs to me that we sort 
of respond to something that happens. We spent a lot of money 
making sure that terrorists cannot hijack planes. But once we 
harden targets, they begin to look at other areas. I think you 
are right to alert us to the issue of railroad security.
    Dr. Samuels, I mentioned at the outset of this hearing, on 
May 11th, we are going to be looking at what happened with the 
Acela train and the disks that are under some scrutiny today. 
Bombardier will be here and others to talk a little bit about 
what is going on.
    You talked about the new technology focusing on not only 
deficiencies or rails wearing out, but you also mentioned that 
the wheels are softer than the rails. So you are watching 
wheels as they wear out. Is there a rule of thumb, life 
expectancies for wheels on a rail car, or is it all different?
    Mr. Samuels. It depends on a lot of different things, 
obviously. But it is the percent of time that the car is 
loaded. It is the number of miles that the car has. So it 
basically is in miles more than it is in years. Depending upon 
the load empty ratio, you can get a wheel that goes for 
250,000, or you could get a wheel that goes for a half a 
million miles.
    The life expectancy normally on wheels is very long though, 
in the time frame of 8 to 15 years. The rail that I showed you 
here on tangent track could last 40 years, and on curves, it is 
anywhere from 6 to 12 years.
    So these assets have very long lives, and that is why it is 
critical that we develop these dynamic monitoring systems to 
make sure we understand the stresses that the car is imparting 
on the rail, and know the condition of the rails, so that we 
can put the appropriate amount of maintenance money into both 
the rolling stock and the rail infrastructure, to keep that 
contact patch at the size of a dime.
    Mr. LaTourette. These monitoring devices that you have 
outlined for us as part of the new technology, I saw the map of 
the United States. Is there a spacing that they are going to be 
every 100 miles, every 1,000 miles? How do you figure out where 
they go?
    Mr. Samuels. What we have done is this. I will take Norfolk 
out as an example. We have done a complete analysis of the ton 
miles on all of our routes, and where cars flow. We have looked 
at the origin destination pairs. We are locating these 
detectors to pick up the majority of cars that transit our 
system.
    In other words, what we are trying to do is make sure that 
we get the maximum amount of cars over these detectors. Now 
these detectors are not inexpensive. When you install these 
detectors, you are talking about at least a half a million to 
one million dollars per detector.
    They are detectors that are meant to find defects before 
they occur; in fact, so far before they occur, that the science 
we are imparting on this is that we are going to find the 
defect with this detector network. In other words, we are going 
to track the car and watch a defect grow. Then we are going to 
take the car out of service way before that defect ever becomes 
a safety problem.
    It is being integrated now. Each railroad is integrating 
that advance data into their data systems that will 
automatically route the cars to a car shop. This is going to 
happen way before you have an incident with that defect.
    Mr. LaTourette. You mentioned that the laser technology is 
new and you showed us a picture of a split rail. I thought I 
understood you to say that you are testing it so that it is 100 
percent and you always find the split that you cannot find by 
visual inspection. Is that still in the testing phase, or have 
you ruled that out?
    Mr. Samuels. No, it is still very much in the testing 
phase. I do not want to give you the impression that we do not 
ultrasonically test the rails today. We do. It is a very slow 
process.
    We have cars called generically Sperry cars, which the name 
comes from the original company that started ultrasonic 
testing. But we test the main line rails at least once or twice 
a year. We have the mathematics to look at the number of 
defects we find. If we find a lot of defects in a given stretch 
of rail, we come back sooner to test that again.
    So the testing frequency depends upon what you are 
continuously finding. In that way, we continuously hone in on 
those parts of the rail infrastructure that need to be changed 
out.
    Mr. LaTourette. Thank you, Mr. Samuels.
    Mr. Pickett, I asked the woman from the FRA a little bit 
about this portion of your testimony where you talk about cars 
traveling no greater than 15 miles an hour for the inspection 
of tracks. I would just ask you how it is that you arrived at 
that as being the safe speed?
    Mr. Pickett. The Brotherhood of Maintenance of Way is the 
one who proposed that. That is one of the other unions that I 
am here testifying on their behalf, also. But one of the things 
that we are seeing is the visual testing, not the testing of 
where the electronic devices are used. They normally are used 
at 30 miles per hour.
    Mr. LaTourette. I also read recently that in India, the 
Indian rail has a signalmen's college. I would ask you, you 
mentioned training. I think you indicated that you did not 
think some of the training, and particularly security training, 
was where you and your membership thought it would be.
    Can you discuss a little bit with us how signalmen are 
trained in the United States, and if there is a technical 
school where they go to, to learn the trade that they are to 
embark on? How does a signalman get his or her training in the 
United States today?
    Mr. Pickett. Most training on the Class 1 railroads are 
done on the property. They have their own signal schools set up 
on each individual property.
    The requirements to become a signalman got more and more 
stringent because of the technology. A lot of the railroads are 
asking for some background in electronics, or at least an 
Associate's Degree in electronics.
    But then that becomes a problem, because initially, our 
people work out on the construction gangs. That means travel, 
and a lot of people that are in technical are not willing to do 
that.
    But the training goes from Associate training, and on most 
of the railroads, some of the Class 1s have what they call 
advanced signal training, that the signal people go return to.
    Mr. LaTourette. That leads to a follow-up. I think it was 
yesterday, the full Committee marked up RIDE-21, which makes 
available $60 billion over the life of the bill for new rail 
infrastructure, and hopefully can help with some of the 
capacity problems we have in the United States, as well as 
looking at high speed rail opportunities.
    Do you feel that there is a sufficient reservoir of 
qualified rail work force to take us into this next century, or 
do we need to do more?
    Mr. Pickett. No, I feel that we are going in the wrong 
direction for qualified people, especially with the next few 
generations. There are a lot of retirements being faced in the 
next 10 years. The hiring is going down in a lot of the crafts, 
rather than up in the crafts for the people to get qualified.
    Mr. LaTourette. I know in Ohio, we have an electric company 
that is called First Energy. They come in and they indicate 
that the average age of their electricians and linemen is about 
55 or 56 years of age. Do you know what the average age of your 
membership is?
    Mr. Pickett. Our average age is 44 and one half.
    Mr. LaTourette. Okay, thank you very much.
    Mr. Menendez?
    Mr. Menendez. Thank you, Mr. Chairman, and I want to thank 
the witnesses.
    Mr. Hamberger, I want to ask you this. I heard what you 
said, but I do not understand how we reconcile what you said 
with the number of accidents that have gathered national 
attention, from a series of Union Pacific accidents in Texas, 
to the BNSF accidents in California, to the deadly accident 
involving Norfolk Southern's train in Graniteville, South 
Carolina.
    How do you reconcile your assertion? I heard about track 
mileage and all that. But I am looking at actual hard numbers 
of accidents. So how do you reconcile your assertion that rail 
safety is improving, when the FRA data shows an increase in 
accidents, if you look at from 2002 to 2004, of 380 more 
accidents?
    Mr. Hamberger. Yes, Mr. Menendez, thank you for that 
opportunity to clarify. I have that data in front of me, as 
well. The point I was trying to make in my opening statement 
was that the number of accidents has indeed increased, as you 
so indicate.
    But the rate of accidents, I think, is perhaps a better 
measure of whether or not safety is improving or not improving. 
That is, the more train miles you have moving, from a 
statistical standpoint, there are going to be some accidents 
that, when measured to page two of the data, indicate that when 
measured as a percentage or the number of accidents per million 
train miles that the rate, we should probably say it is about 
the same.
    It is 4.03 accidents per million train miles in 2003 and 
4.01 per million train miles in 2004. So I think it is that 
rate that really indicates whether or not safety is increasing, 
rather than the actual number.
    Mr. Menendez. I appreciate that categorization of it. When 
we look at accidents by car in this country, we look at the 
total number of accidents, period. We make judgments as to 
whether we are moving towards greater success or failure by the 
virtue of the number of accidents that we have.
    I heard one of our colleagues suggest that comparison of 
your success rate in the industry and accidents versus that of 
automobiles. I am not quite sure that that is a fair 
comparison, considering not only volume, but also the fact that 
we use multiple lanes and a variety of other factors that go 
into car traffic. It does not seem to me like we compare apples 
and apples in that case.
    I know that the industry wants to do this, because 
obviously, it costs it money, consequences, and reputation and 
all of that. So I assume that there are good efforts, in 
addition to all the technology things that are being done. But 
I hope we deal with the work force side, as well, to help you, 
as an industry, achieve what should be some mutual goals.
    Let me ask you specifically, the title of the hearing is 
also about rail security. In that context, what has the rail 
industry done specifically to improve security, and what have 
you done to work with the workers in terms of rail security 
training? How do you get your rail security alerts, as an 
industry?
    Mr. Hamberger. Again, thank you for the opportunity. It is 
a bit of a rambling answer coming, I am afraid. We began in 
September of 2001, immediately after the 9/11 incidents, 
recognizing that the material that we haul is, in fact, 
hazardous.
    So we quickly put together five different critical action 
teams that take a look at all aspects of the operations of the 
railroad, focusing one of those on the transportation of 
hazardous materials.
    We realized very quickly, that we needed help in this 
regard, and we contracted with a local group called EWA, 
comprised primarily of former military and civilian 
intelligence officers. They came in and worked with us to take 
a look at the rail network the way they were trained, and the 
way they thought that a terrorists would look at the network.
    They brought with them best practices from the intelligence 
community. In December of 2001, we came up with four levels of 
alert, prior to Secretary Ridge coming up with his five. We 
identified and implemented immediately about 50 different ways 
of operating.
    For example, leading up to that point, we had been trying 
to make our operations more transparent for our customers. We 
let them dial in and find out where their shipment is. We 
realized that that was not very secure, and that anyone had 
access to that information. So we cut back and made that much 
more difficult for those who do not have the right to know, to 
try to tap into that.
    Then at each level of alert, we have a very specific set of 
actions that we will take; for example, posting guards at fuel 
depots. We have reached out and are working with local police 
forces, the National Guard. When we went into Iraq, the 
National Guard helped protect and guard about 17 bridges around 
the country.
    We are the only industry that I am aware of that on our 
nickel has somebody sitting, a badge to sit, 24/7, at the 
National Joint Terrorism Task Force Intelligence Desk at the 
FBI, as well as at the intelligence desks out here in Herndon, 
that TSA and DHS run.
    These are people under contract to us. They are at top 
secret level, and they are sitting there, hoping to help the 
intelligence community interpret data that they pick up, the 
so-called chatter. It also is a two-way street.
    Mr. Menendez. So primarily, it is informational.
    Mr. Hamberger. It is based on intelligence.
    Mr. Menendez. It is reactive to a potential incident.
    Mr. Hamberger. It is based on intelligence. That is 
correct.
    Mr. Menendez. But it is not proactive in the context that 
you have done certain hardening?
    Mr. Hamberger. No, that is not correct. We have certainly 
done that, as well. For example, we have made it much more 
difficult to approach the yards. I get e-mails every day, rail 
fans around America, saying, you know, you are not letting me 
take pictures of trains. That is what I like to do.
    So that is something we have also been proactive in. 
Certainly, here in D.C., working with the Capitol Police, 
working with the D.C. police, working TSA, CSX has spent 
millions of dollars on intrusion detection devices and other 
high tech applications to make this particular corridor much 
harder and a hardened asset.
    Mr. Menendez. If I may, Mr. Chairman, very briefly, Mr. 
Pickett, rail security as it is viewed from rail workers, what 
do you think needs to be done?
    Mr. Pickett. They need to be trained. I mean, a lot of the 
stuff that Mr. Hamberger talked about, it is the first I have 
heard about it. I did not know they had any type of thing. Most 
of the workers in the rail industry will tell you the same 
thing; that they are not aware of any type of training that is 
going on for the security.
    Mr. Menendez. These are the people who are obviously out 
there in the system.
    Mr. Pickett. They are out on the property every day.
    Mr. Menendez. Why do you not do that, Mr. Hamberger?
    Mr. Hamberger. Well, I guess I would disagree, 
respectfully, with that characterization. The individual 
companies, in fact, have made security part of the daily safety 
briefing. There have been briefings on what to look for, for 
the operators of the locomotive. If they see anything unusual, 
they are to report that back to the dispatch center, back to 
the train master. They are not punished for doing that.
    As far as the fact of the hazardous materials that we 
handle, there have been years and years of training as to how 
to respond to that. You do not want the operator of the 
locomotive to get out and be the emergency responder. You want 
the team that is trained to be the emergency responder to be 
the first on the scene to know how to handle and respond to 
some HAZMAT spill. So I guess I respectfully disagree with 
that.
    Mr. Menendez. Well, I have some additional questions, and I 
do not want to belabor the time. I do have one for Dr. Samuels. 
I have two quick ones. Is it a helium or neon laser that you 
are using, or some other form of laser?
    Mr. Samuels. No, I do not know the exact power source 
generation of the laser that we are using.
    Mr. Menendez. If you could let us know, I would like a 
verification of it.
    Mr. Samuels. Okay, I will do that.
    [The information received follows:]

     Dr. Samuels: Congressman Menendez the type of laser that is used 
in the detection device I mentioned is a Class IV 800 mili-joules light 
yang laser.

    Mr. Menendez. Lastly, is there any technology that you are 
using, since we talked about rail safety, in your ambient of 
what you are doing for the association as it relates to rail 
security, that you are providing or studying right now?
    Mr. Samuels. There is a lot of work going on in looking at 
technological scans on what could possibly be used in terms of 
rail security.
    What we have done, and I echo what Ed Hamberger said, we 
have had tried to educate our people as to how to be alert and 
what to be alert for.
    We have a lot of eyes. In the case of Norfolk Southern, 
there are 28,000 people out there every day working. That is a 
lot of eyes watching the railroad and watching what goes on.
    So what we have tried to do is set up police emergency 
numbers, police emergency desks. There are calls on safety and 
security among our management team. I have personally been 
trained in security matters. I went to this terrorism training 
because I was deemed to be too nice a guy, and did not know how 
terrorists think.
    In formulating our plans on the railroad and our 
educational processes, what we have tried to do is say, how 
much prevention can we put in place by educating our people? 
There are not 28,000 policemen. But there are 28,000 people 
watching what goes on, and we have a mechanism to report what 
they see.
    There are a couple of specific technologies, if I might, 
Mr. Menendez. We are working on one that would be a database 
that would have within it the profile of all 1.5 million rail 
cars operating on the system.
    As the rail car would go by, it would match, through visual 
imaging, and do not ask me what that means. As the car goes by, 
it would match the visual image of the car with what is in the 
database, to see whether or not, for example, a bomb has been 
planted in the bottom of that rail car. That is something that 
is being tested out in TTCI.
    In addition, as Ms. Strang mentioned, there is research 
going on for some sort of a liquid armor, that looks as though 
it actually has self-sealing capabilities, if a breach did 
occur. This obviously would have not only security, but safety 
implications, as well. That research is being done at TTCI with 
DHS funding.
    Mr. Menendez. Thank you.
    Mr. LaTourette. I thank you, Mr. Menendez. I have just one 
quick follow-up question, Mr. Hamberger. I was surprised when 
Ms. Norton was here, on this issue about the D.C. legislation 
that is now in litigation. She opined that the fire chief from 
the District did not have advance information of what kind of 
traffic was going through his town.
    I understand from my fire chiefs that there is, in fact, 
technology and a program. I do not know if they subscribe to it 
or somebody gives it to them free. But my fire chiefs in Ohio 
indicate to me that they know when a train is coming through 
town that has chlorine or some other substance, that maybe they 
have got to perk up about. Am I wrong?
    Mr. Hamberger. I think Mr. Collins probably should respond, 
and the next panel can get into some more of the specifics. Let 
me tell you what I think I know. That is that we do not provide 
pre-notification on a train-by-train basis.
    What we have agreed, and I will double check on this during 
the break, it is our understanding that the fire chief has been 
briefed, probably perhaps subsequent to his conversation with 
Delegate Norton. But we believe that we have briefed the D.C. 
fire chief.
    I met this morning actually with a representative from the 
International Association of Fire Fighters, who concurs with 
our view, that with 1.8 million carloads of hazardous material 
moving around the country, that most fire departments could not 
deal with the blizzard of information. It would just overwhelm 
them and become so commonplace that it would not, in fact, perk 
their ears up.
    Therefore, what we have offered, as an industry, is that we 
would sit down with the appropriate emergency responders in a 
community, to let them know what are the kinds of things that 
come through their community, so that they can be trained on 
those specific hazardous materials. But the pre-notification is 
not on a train-by-train, car-by-car basis, because of the 
overwhelming nature of it.
    Mr. LaTourette. I thank you for that. The other comment I 
would make is this. It is apparent from the questions by Mr. 
Menendez and your conversation, Mr. Pickett, that there is a 
disconnect between the organizations that represent railroad 
employees and the railroads, at least as represented by you 
today, about whether or not there has been security training.
    I often find it to be more instructive, rather than for us 
to have more hearings and find this out; maybe you could 
initiate a conversation with Mr. Pickett and his fellow folks.
    Mr. Hamberger. We have worked well together on other 
issues, and I am sure we will reach out and talk on this one, 
as well.
    Mr. LaTourette. Well, I appreciate that very much. Is there 
anything else?
    Mr. Hamberger. If I might, just for the record, thank you 
for your indulgence in letting us go a little bit longer in the 
presentations.
    Mr. LaTourette. I did not even notice. Thank you for 
coming.
    Mr. Hamberger. Thank you.
    Mr. LaTourette. Our third and final panel today consists of 
three witnesses. First will be Mr. Daniel Collins, who is the 
President of the Operation Respond Institute. Second will be 
Mr. Thomas Rader, who is the President of the Colorado Railcar 
Manufacturing Company; and lastly, Mr. Jeremy Hill, who is the 
Senior Vice President of the Union Switch and Signal Company.
    I want to thank you all for coming. Thank you for your 
patience as we got through our other two panels. We are anxious 
to hear from you, and we will begin with you, Mr. Collins.

 STATEMENTS OF DANIEL M. COLLINS, PRESIDENT, OPERATION RESPOND 
  INSTITUTE, ACCOMPANIED BY JAMES BOONE, VICE PRESIDENT, AND 
   GERALD LYNCH, EXECUTIVE DIRECTOR OF REGIONAL INFORMATION 
   SHARING SYSTEM; THOMAS RADER, PRESIDENT, COLORADO RAILCAR 
MANUFACTURING; JEREMY HILL, SENIOR VICE PRESIDENT, UNION SWITCH 
                       AND SIGNAL COMPANY

    Mr. Collins. Thank you, Mr. Chairman. On behalf of the 
carriers and emergency responders that support Operation 
Respond, in partnership with the Federal agencies, I am honored 
to provide the following testimony on new technologies for 
railroad safety and security.
    Accompanying me here today is Dr. James Boone, our Vice 
President, and also Mr. Gerald Lynch, the Executive Director of 
the Regional Information Sharing System, one of our strong law 
enforcement partners.
    Mr. Chairman, I would like to express the gratitude of the 
Operation Respond Team for inviting us to participate in this 
hearing. I would also like to acknowledge your acceptance to 
serve on the Operation Respond International Steering 
Committee, along with your esteemed colleague, the Honorable 
Nick J. Rahall.
    Operation Respond has been involved in developing software 
products for first responders since 1995. We could not have 
accomplished all that we have without the assistance of the 
fire chiefs, the fire fighters, the National Volunteer Fire 
Council, the chiefs of police, and the International Union of 
Police Associations.
    These response agencies, the Association of American 
Railroads, and the American Public Transportation Association 
have been there for us, time and time again, to fine tune our 
products, and assist with dissemination and training.
    Our software, Operation Response Emergency Information 
System, is currently deployed in over 26,000 emergency response 
agencies in the United States, Canada, and Mexico, reaching an 
estimated one million responders.
    The largest component of these installations is the RISS-
NET system. Mr. Lynch's organization thought so highly of the 
OREIS software, that they placed it right next to the Amber 
Alert System, inside of RISS.
    The software OREIS provides a direct link to the software 
user and the manifests of participating railroads. Responders 
can obtain verification of hazardous materials contents of 
leaking rail cars in less than one minute. Our goal is to make 
sure the first responder is not the first victim.
    All Class 1 railroads in the United States and Canada have 
signed license agreements with Operation Respond. Also, many 
regional and short line railroads participate, such as the 
Alaska Railroad and Montana Rail Link.
    Basically, Mr. Chairman, the freight railroads have stepped 
up to the plate. They provide, through our secure software, all 
the information they have on chemical contents to responders 
along their routes.
    If I may, Mr. Chairman, deviate here a second, this is not 
pre-information that is supplied. This is live information that 
is gained by the responder accessing the software, if and when 
something happens. It is an exception based system that is 
generated by a query by the responding agency that has our 
software.
    Now, Mr. Chairman, to address the topics specifically 
mentioned in your letter requesting this testimony, we are 
going to address three issues. On improved infrastructure 
technologies, we believe responders to rail transportation 
incidents often need help to confirm the exact incident 
location and how best to reach it.
    Railroad infrastructure landmarks are not always understood 
by responders, and have led to responders wasting valuable time 
finding trains. For example, a railroad milepost may not be 
directly related to a mile marker located along a nearby 
highway.
    Operation Respond has found that a searchable database of 
railroad features, designed to overlay on aerial and satellite 
imagery and street maps, enables emergency responders to 
quickly and reliably reach an incident site.
    In fact, in 2004, under sponsorship from the Department of 
Homeland Security, Operation Respond developed such a system, 
an enhanced GIS and overlaid imagery system for the Department 
of Homeland Security and Amtrak police. The project was a 
highly focused effort along the Northeast Corridor, and it was 
completed prior to both the Republican and Democratic 
conventions.
    Operation Respond believes that a cooperative effort with 
some Federal funding can identify and develop a standardized 
geospatial database of essential railroad features. The 
benefits would include allowing carriers to determine the 
appropriate response organizations in an emergency; assisting 
railroad police and emergency operations desks to communicate 
with public agency dispatchers; and last, to help those 
responders locate trains in distress in a timely fashion.
    The other issue is better emergency planning. Our approach 
has been to improve emergency planning by bridging the gap 
between the responders and the carriers. Through easy-to-use 
software, complicated railroad data is simplified. So a 19 year 
old volunteer fire fighter can quickly and easily obtain what 
they need.
    Also, I would like to introduce new technology that we have 
been working on. Our goal is to turn the Operation Respond user 
base, now 26,000 strong and growing, into a transportation 
incident alert and messaging system. What we are working on 
with the AAR and the individual carriers is the capability that 
sends alerts and messages to those responders and to the 
carriers' 24/7 operations desks.
    These alerts or messages could be directly associated with 
incidents or based on a potential threat, such as an explosive 
device or a possible terrorist action.
    Last is modern passenger coach technologies. Law 
enforcement has been particularly interested in Operation 
Respond passenger coach software. This component of OREIS 
features passenger car and locomotive schematics, highlighting 
emergency information, such as emergency windows and doors.
    The law enforcement component views these schematics as a 
very effective tool for dealing with on-board incidents. These 
could range from identifying locations for hiding bombs and how 
to approach an on-board hostage situation.
    To conclude, Mr. Chairman, I have four recommendations. 
Number one, all railroads should participate in Operation 
Respond. I respectively request that this should be a voluntary 
initiative.
    Second, a national railroad infrastructure search engine 
should be developed. The priority should be DOD routes, 
hazardous material routes, AMTRAK, and commuter train routes.
    Third, a national transportation incident alert and 
messaging system needs to be developed. Operation Respond 
software users are the ideal group to serve as the network 
foundation.
    Finally, while the OREIS software deployments are indeed 
growing, the goal needs to be universal coverage. At the 
present time, we are essentially half the way there.
    Thank you again, Mr. Chairman, and when the questions are 
ready, we will try to answer them.
    Mr. LaTourette. Thank you very much, Mr. Collins. Mr. 
Rader, welcome, and we look forward to hearing from you.
    Mr. Rader. Thank you, Mr. Chairman, I am here on behalf of 
Colorado Railcar Manufacturing to talk a minute about emerging 
technologies in passenger equipment.
    We really have two emerging technologies to talk about. One 
is the development of double-decker vehicles. The second is the 
development of the U.S. DMU. I am going to focus primarily on 
the U.S. DMU.
    DMU stands for Diesel Multiple Unit. It simply means a car 
which is self-propelled and has diesel engines underneath it. 
It does not require a locomotive, and is capable of being 
hooked together in multiple units to make various sizes and 
types of train sets.
    They are very common in Europe. There are thousands of them 
operating throughout the world. It is a technology, however, 
that has not been in the United States since the late 1960s.
    The reasons are multiple, but one of the chief reasons, as 
Joe Strang presented earlier, in 1999, there were new 
regulations enacted that required stronger, safer passenger 
cars.
    On the other hand, there were no large orders, no transit 
agency wanted to order a speculative order of a new self-
propelled car that had not been run anywhere.
    My company decided that there was an opportunity here to 
make a United States car that met United States regulations. We 
went to the Federal Railroad Administration. We got wonderful 
cooperation. We spent a year and a half working with them, and 
the result was a U.S. DMU.
    Why are we so interested in this? It is very simple. The 
U.S. DMU uses 50 percent less fuel per passenger mile than a 
locomotive-hauled train when it is being used in an appropriate 
service. That is energy security. We are talking about trains 
using millions upon millions less gallons of fuel per year.
    Because we have a lighter train, but still build to the 
regulatory safety standards, we can use less fuel and we can 
use more modern engines. So we produce 68 percent less 
pollutants or emissions per passenger mile. So instantly, we 
can reduce the emissions from trains.
    Because of the noise design and the size of the engine, we 
actually produce 75 percent less noise. So these benefits are 
very real when it comes to security and safety.
    But interestingly, they do not typically cost millions of 
dollars more. In point of fact, the operational cost savings 
from a U.S. DMU, over the 30 year life of the car, is two to 
three times the value of the car. So a $10 million train set, 
over 30 years, will save as much as $35 million in operating 
costs.
    They are redundant systems. Unlike a locomotive that has 
one large engine, they have two or more per train set. So they 
are not blocking the track when you have an engine failure; and 
if someone is capable of messing up, if you please, a system, 
we can still get it off the track and get it home safely.
    Lastly, in spite of all these other savings, it has another 
great benefit in savings in infrastructure costs. We can reduce 
infrastructure costs because we have shorter trains, so we need 
shorter platforms. We have fewer cars because they are double 
deck, so we need fewer maintenance bays and we need fewer 
parking tracks. So all of these benefits come without any 
increase in capital cost.
    Thanks to the hard work of a member of your Committee, this 
double deck car development is now in production, and will be 
in operation in Florida, starting in the middle of July. It is 
presently in completion, and will be going to TTCI for testing 
in the whole month of June.
    We invite you to come see it. It is a real opportunity for 
us to maintain the safety level, the only self-propelled 
vehicle in the world that meets United States' standards.
    When you saw those crash pictures, I think it is very 
important to understand, the first cars you saw do not meet the 
current standards. Only the reinforced car met the current 
standards. These cars meet the current standards.
    When it is finally delivered, it will look like this, on 
the next to the last one there. I want to thank you very much 
for the opportunity to testify before the Committee.
    Mr. LaTourette. Mr. Radar, thank you very much for coming. 
We would like to identify the hard working members of our 
Committee. So is that Mr. Mica you were talking about?
    [Laughter.]
    Mr. LaTourette. Mr. Hill, thank you for coming, and we look 
forward to your testimony.
    Mr. Hill. Thank you, Mr. Chairman. Chairman LaTourette, 
Ranking Member Menendez, and Committee members, thank you for 
the opportunity to present information on technologies that are 
available today for increasing safety, security, and efficiency 
of railroad operations.
    Our company is part of Ansaldo Signal and the Finmeccanica 
group of companies. As Union Switch and Signal, we have served 
the rail industry in the control system business as a leader in 
the development and deployment of technology throughout our 125 
year history.
    Development of new products for rail safety and security is 
a primary focus of the Finmeccanica family of companies 
throughout the world. We are headquartered in Pittsburgh, 
Pennsylvania, with manufacturing facilities for our products in 
Batesburg, South Carolina, and have many representative offices 
throughout North America. We currently employ about 900 people 
within the United States.
    The rail safety solutions that I am presenting today are 
currently available in our portfolio. They do provide improved 
infrastructure inspection and security, positive train control, 
and better operational planning and emergency coordination.
    Let me first discuss our railroad track integrity system. 
This system, which is based on a proven technology already in 
service in North America, checks track integrity. That is a 
broken or missing rail in dark or unsignaled territory.
    It can incorporate switch point position detection, and 
provide communication directly to a train or to a centralized 
management center.
    Many secondary lines are not equipped with train control 
systems, as we have already heard. There are, in fact, 68,000 
miles of Dark Territory in North America. Signal systems not 
only control the flow of rail traffic, but they can also warn 
an approaching train of a broken rail or improperly aligned 
switch. Unfortunately, signal systems tend to be expensive and, 
therefore, generally uneconomical on light density rail lines.
    At Union Switch, we have developed this new implementation, 
which has the potential to dramatically improve security and 
safety on these light density rail lines. The system is 
relatively low cost, and could prevent a reoccurrence of 
accidents, such as the tragic derailment in Graniteville, South 
Carolina, earlier this year.
    The second topic is positive train control. This system 
also utilizes proven Union switch technology, which will be 
deployed on the Alaska railroad for revenue service by summer 
of the year 2007. Deployment will improve operational 
efficiency, and prevent train-to-train collisions through the 
use of GPS tracking and location determination, and on-train 
operator enforcement.
    In our terminology, this system is vital. That is, any 
system failure automatically results in an overall known safe 
state.
    The third technology is the advanced speed enforcement 
system. This system provides an improved level of safety. It 
ensures that trains actually stop at red signals. The system 
has been implemented on Amtrak in the Northeast Corridor, and 
also on New Jersey transit commuter operations.
    This technology, originally introduced in Scandinavia by 
one of our Ansaldo Signal sister companies, can be implemented 
in any territory, and is ideally suited to mixed traffic 
operations.
    We are also exploring a new technology called the Common 
Operational Picture. Currently, railroad operations planners in 
cities like Chicago and New Orleans plan inter-line operations 
the same way they did when railroads were introduced, basically 
with paper, telephones, and faxes.
    Our Common Operational Picture would enable these personnel 
to see on a geographically-oriented overview, all train 
operations in these heavily-trafficked, congested areas. The 
end result will be better planning, coordination, and a 
reduction in the transit time of the Nation's freight in 
heavily congested areas.
    We are also working on an optimization traffic planner. As 
you are aware, there areas in the Nation where railroads are 
already at full capacity. Without the need for adding 
additional infrastructure, this software-based tool plans 
overall train operations in real time, taking operational 
information on the railroad, such as track outages or defective 
equipment into consideration, to provide the most optimum train 
plan possible, based on established business objectives; for 
example, maximizing overall railroad velocity.
    The system has been in development at Union Switch for five 
years, and although not currently deployed on any railroad, the 
technology has been demonstrated, and we are anticipating 
deployment on a Class 1 railroad in the near future.
    Our civil advisor system was originally conceived for use 
by 911 emergency responder dispatchers. The system provides 
secure real-time train information and location on a 
geographical information system map. Train locations are 
displayed, relative to detailed highway and street information 
and other physical infrastructure; for example, public 
buildings, hospitals, stadiums, et cetera.
    Most importantly, the system can provide information on 
blocked highway crossings, and in the event of a railroad 
emergency, it can provide additional information, such as train 
manifest information, HAZMAT detail, and the correct emergency 
responder contact information. The potential users are 
enormous: 911 dispatchers, police, railroad and transit 
agencies, Department of Defense, Homeland Security and 
Transportation, the Federal Emergency Management, the Federal 
Railroad and Transportation Security Administrations, to name a 
few.
    We look forward to the further implementation and 
deployment of these technologies, and encourage your Committee 
to enact the legislation necessary to establish the innovative 
public/private partnerships, such as the Create Project in 
Chicago, that will provide a mechanism for immediate 
implementation for the benefit of the rail industry and the 
public at large.
    As always, one of the biggest challenges in deploying new 
safety technology on rail systems continues to be funding. 
Before I conclude, I would request permission for the document 
I have submitted, detailing these new technologies to be 
included in the record.
    Mr. LaTourette. Without objection.
    Mr. Hill. Once again, I would thank the Committee for the 
opportunity to present today on behalf of Union Switch and 
Signal and the railroad's signal and control systems supply 
community. Thank you very much for your time and support. I 
would be happy to answer questions that you may have, thank 
you.
    Mr. LaTourette. Mr. Hill, thank you very much for your 
testimony. I am sure both Mr. Menendez and I will have 
questions.
    Mr. Rader, my first question would be to you. How fast do 
your trains go?
    Mr. Rader. The initial train that we have designed is 110 
miles an hour.
    Mr. LaTourette. It is my understanding that aside from the 
good work that is going on in Florida, that you have also 
introduced, or plan to introduce, or started to introduce, a 
new fleet of cars up in the Alaskan railways. Is that right?
    Mr. Rader. That is correct. They were just delivered. I got 
a call yesterday in route to this meeting.
    Mr. LaTourette. Can you tell us a little something about 
the cars that were delivered yesterday, and what kind of 
operation is going to be conducted up in Alaska?
    Mr. Rader. Yes, they are double deck, full-length, glass 
dome cars, the largest passenger cars in the world, and they 
are designed for the luxury tourism market. The Alaska 
railroad, well, let me see, I should know, I started it, in 
1983, has been towing the cars behind their scheduled services 
of the various cruise companies to Alaska.
    They have now made sufficient profits from that operation 
to reinvest in building their own luxury tour cars, and they 
are entering the market. The combined operation of all of those 
tour cars together has taken an operation that was losing 
millions of dollars in 1983 on passenger service, and turned it 
into one which has a substantial positive cash flow from 
passenger service.
    Mr. LaTourette. I am glad you mentioned that. There is sort 
of a great myth in this country that you cannot turn a profit 
with passenger rail service. I just heard you describe what is 
going on in Alaska. I mean, should we be thinking about 
separating passenger rail service from sort of the tourism 
side, as opposed to the getting people to work side of things?
    Mr. Rader. Yes, I think they are certainly two different 
operations, two different markets, and must be approached 
mentally differently. How one approaches that, I am not sure I 
have the answer.
    But the recognition is that, as an example, long distance 
trains are not transit, but are really, I think, the tourism 
kind that the Alaskan railroad has. Tourism supports the 
essential transportation service. So the challenge we all know 
is to make essential transportation pay for itself.
    Mr. LaTourette. How many people can fit in one of your 
cars?
    Mr. Rader. The double-deckers upstairs are usually 90 to 
120, and downstairs they are about 20 less. So they can fit 200 
passengers comfortably.
    Mr. LaTourette. Thank you very much.
    Mr. Collins, can you give me a real world example of where 
Operation Respond might have assisted in an emergency 
situation?
    Mr. Collins. Yes, Mr. Chairman, the first one that comes to 
mind is an incident in Rochester, New York. It basically ended 
up on a short line railroad, where the Rochester Fire 
Department did not have access to that short line railroad's 
database, but they had access to the CSX database.
    They were able to go in and get the information on that 
particular leaking tank car to help them understand what 
chemicals they were dealing with in this incident in Rochester, 
New York.
    Similarly, in the Salt Lake City incident that just 
happened out in Utah, where they had to evacuate 6,000 people 
with the confusion over the chemicals, the Midvale Fire 
Department actually queried on our system. They queried the 
Union Pacific, the BNSF and the Utah Railway, the three that we 
have in that jurisdiction, to obtain information on the 
contents of those cars that were leading to the evacuation.
    Last year, in 2004, on the freight railroad side, we had 
over 1,800 queries of the system. Some of this is training and 
some of this is testing, which is good, because it is 
familiarizing people with how to use the system. But it also is 
an indication of the concern by the communities over issues 
that they need data on.
    Mr. LaTourette. You mentioned, I think, that all seven 
Class 1 railroads have voluntarily signed agreements with you. 
What do you think the reach is of Operation Respond? That would 
be part one of my question. Then two, do you also cover 
commuter lines, such as Metro North in New York?
    Mr. Collins. Yes, that is true for all the Class 1 
railroads in Canada and the United States, and we recently 
signed an agreement with the TFM in Mexico, although we have 
not launched that service yet, until we get the full Spanish 
version working.
    The reach is going to be the reach of the full extent of 
the Class 1 railroads. The example that I mentioned with the 
short line situation, it is really the Class 1s that are 
originating this hazardous materials.
    They have the data. Even though they may pass it off to a 
short line that is not in our system, the people that use our 
software understand that they can query on all railroads, for 
that matter, to find out what chemical they are dealing with.
    Now with the passenger train side of things, I am very 
pleased. Particularly along the Northeast Corridor, we have the 
Virginia Railway Express. We have MARC. We have Amtrak. We have 
the Long Island Railroad in New York. We have the New Jersey 
Transit in New York. We have Metro North in New York. We have a 
real solid base along the Northeast Corridor of all the 
commuter operators that have joined our system.
    We have several out west, as well. We have one in Toronto, 
Go Transit, that is now in our system. There are several voids 
there that we would like to fill. We have been working with 
APTA on programs to try to encompass that particular industry.
    Mr. LaTourette. Thank you very much.
    Mr. Hill, I think you mentioned that your Advance Speed 
Enforcement System is already deployed in the Northeast 
Corridor. Is that right?
    Mr. Hill. That is correct.
    Mr. LaTourette. It is my understanding that most commuter 
rail systems in the country have, I think they are called 
wayside signals, which are basically traffic lights at the 
site. But some of the higher speed corridors like the Northeast 
Corridor, require cab signals, which are more expensive to 
install. Does your system require the use of cab signals, or 
can you use it without?
    Mr. Hill. It can be used definitely without. It can be 
installed without any other signaling infrastructure that would 
be existent today. In the Northeast Corridor, we have deployed 
it in conjunction with the cab signaling that is there. So you 
have both continuous and what we call intermittent cab 
signaling, which is the speed enforcement system.
    But outside of the Northeast Corridor, generally on Class 1 
and other operating railroads, there is very little cab 
signaling deployed.
    Mr. LaTourette. Lastly, with the Railroad Track Integrity 
System that you talked about, I think it would be very 
important to know if there is a missing track up ahead. Can you 
tell us just a little bit about how that system works in 
comparison to what we have in existence today?
    Mr. Hill. Basically, the Track Integrity System is a 
technology that was developed at Union Switch many years ago. 
It was latent. We had not used it.
    The system actually sleeps most of the time, and really is 
woken up when a train would come along in Dark Territory. So it 
is specifically for dark or unsignaled territory.
    We have deployed this technology on a trial basis, as your 
colleague, Mr. Graves, indicated, on the Burlington Northern 
Santa Fe. There is a 50 mile test area there, where this 
technology is being deployed.
    Basically, as a train approaches, the technology wakes up. 
It checks the track ahead, to make sure that there are no 
broken or missing rails. Then the information is communicated 
back to the locomotive, to indicate that everything is clear 
ahead.
    In that particular demonstration on the Burlington Northern 
Santa Fe, they have already recognized or detected eight broken 
rails in the period that the equipment has been installed. This 
obviously can be a cause for major derailments.
    Mr. LaTourette. How far ahead can it see? I mean, is it the 
whole 50 miles that you have wired, or how does it work?
    Mr. Hill. One particular track circuit of this technology 
can reach nearly five miles. Over a 50 mile territory we would 
have like 10, what we call track circuits, or individual 
sections of track that we check.
    Mr. LaTourette. Thank you very much.
    Mr. Menendez?
    Mr. Menendez. Thank you, in Mr. Hill's response to your 
question, Mr. Chairman, I thought there was only one broken 
rail around here.
    Mr. LaTourette. That is one too many.
    [Laughter.]
    Mr. LaTourette. I want to thank all the panels. Mr. 
Collins, let me ask you, based on the work you have done with 
the industry to develop a Railroad Incident Location Program, 
what would it take, if you have any estimates, for a national 
program? What would it cost and how long would it take to 
implement?
    Mr. Collins. Okay, I would like to turn this over to Dr. 
Boons, since he is running this program for us.
    Mr. Boone. Thank you very much, Dan. This is a good example 
of taking advantage of the technology changes that are going on 
in the 911 arena and with the advent of the cellular telephone.
    There is a great deal of activity, as I am sure all of you 
on the Subcommittee know, going on to address locations, take 
imagery at the county level, and do a great deal of work in 
determining streets and roads. All of this is being done to 
improve emergency response as a general matter.
    One of the things that we believe can be done is to take 
advantage of the excellent engineering data that the railroad 
industry already has, as Mr. Hill described, literally locating 
a lot of the major features that would be needed for a 
responder to adequately match a highway mile post or a street 
intersection with where to go to reach a railroad incident.
    This is particularly important, as the railroads have done 
an outstanding job in reducing grade crossings, which are the 
traditional way to determine where rail and highway 
intersections occur, and also locates where you are on the 
railroad.
    That is a long way around to say that a good deal of the 
work is already underway by the emergency community, and a lot 
of the data exists within the railroads themselves.
    We think, with a cooperative program, recognizing the 
security needs of the data itself, and the fact that it is 
proprietary data and needs to be brought into a uniform format, 
that over a period of four to five years, we do not think it 
would be in excess of $30 million to $50 million to do the 
entire Nation.
    Now, having said that, not every piece of every railroad 
needs to have high resolution imagery or needs to have the same 
level of detail that you would have, for example, in 
metropolitan New Jersey or along the shore in Ohio. But you 
would want to have a practical way of doing this sufficient to 
meet the needs of the 911 centers and the others who have to 
literally figure out how do I locate where it is and then how 
do I get to it.
    Mr. Menendez. Thank you, I understand it is a response and 
safety enterprise. Do you see any applications as it relates to 
security?
    Mr. Collins. I think in the testimony, I tried to address 
the security side, and particularly our work with the passenger 
train-carrying railroads, where the schematical presentations 
of their equipment are contained within our software.
    Then if there are incidents on board those particular 
pieces of equipment, the responding law enforcement agencies 
could obtain the data, even before they went into the car: the 
width of the aisles, if there were incidents with windows, 
understanding what the fabrication of the windows are; all 
kinds of critical information they might need.
    The SWAT teams, for example, might need this before they 
went in and actually put their plan of action in place.
    Mr. Menendez. Thank you, Mr. Collins.
    Mr. Rader, based upon your presentation, you should be 
selling like hotcakes.
    [Laughter.]
    Mr. Menendez. It sounds like you are on your way. I am just 
wondering have you experienced, for example, in your double 
deck cars, any challenges or any obstacles?
    Mr. Rader. Certainly, we have. The biggest challenge we 
face is, if you pick up a railroad specification today for new 
cars, it will ask for five to ten years of railroad-proven 
service. I do not have five to ten years of railroad-proven 
service in a new car.
    However, that is the wonderful thing about what Congressman 
Mica has helped put together in Florida. We will have that 
demonstration over the next two years. Then, yes, I think it 
will go like hotcakes.
    In fact, I think one of the real opportunities here, if you 
look at the economics, the savings on these cars would 
literally pay the principle and interest over the life of the 
car, if you were financing it at Treasury rates.
    Mr. Menendez. I have just one technical question for 
myself. They are self-propelled, and you talked about how there 
are different ones on different cars. What happens when, for 
argument's sake, one goes out? Does it continue to self-propel 
itself through the independent power?
    Mr. Rader. Yes, they are independently controlled. That is 
the joy of it. If one goes down, the computer on the adjoining 
engine says, I am not hearing from my friend. I am in control, 
and it takes over.
    Mr. Menendez. Thank you very much.
    Mr. LaTourette. I thank you, Mr. Menendez. I want to thank 
this panel, and I want to thank all of the witnesses on all 
three panels. I learned a number of things today, and I 
appreciate your being willing to share with us. I want to thank 
Mr. Menendez for filling in so ably for Ms. Brown, who 
hopefully will be back with us next time.
    As with the other panels, there may be some questions that 
people may have that we will forward to you, and if you will be 
so kind as to respond, we would appreciate that. There being no 
further business to come before the Subcommittee, we stand 
adjourned.
    [Whereupon, at 1:05 p.m., the subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 21704.106
    
    [GRAPHIC] [TIFF OMITTED] 21704.107
    
    [GRAPHIC] [TIFF OMITTED] 21704.108
    
    [GRAPHIC] [TIFF OMITTED] 21704.109
    
    [GRAPHIC] [TIFF OMITTED] 21704.110
    
    [GRAPHIC] [TIFF OMITTED] 21704.111
    
    [GRAPHIC] [TIFF OMITTED] 21704.112
    
    [GRAPHIC] [TIFF OMITTED] 21704.113
    
    [GRAPHIC] [TIFF OMITTED] 21704.114
    
    [GRAPHIC] [TIFF OMITTED] 21704.115
    
    [GRAPHIC] [TIFF OMITTED] 21704.116
    
    [GRAPHIC] [TIFF OMITTED] 21704.117
    
    [GRAPHIC] [TIFF OMITTED] 21704.118
    
    [GRAPHIC] [TIFF OMITTED] 21704.119
    
    [GRAPHIC] [TIFF OMITTED] 21704.120
    
    [GRAPHIC] [TIFF OMITTED] 21704.121
    
    [GRAPHIC] [TIFF OMITTED] 21704.122
    
    [GRAPHIC] [TIFF OMITTED] 21704.123
    
    [GRAPHIC] [TIFF OMITTED] 21704.124
    
    [GRAPHIC] [TIFF OMITTED] 21704.125
    
    [GRAPHIC] [TIFF OMITTED] 21704.126
    
    [GRAPHIC] [TIFF OMITTED] 21704.127
    
    [GRAPHIC] [TIFF OMITTED] 21704.128
    
    [GRAPHIC] [TIFF OMITTED] 21704.129
    
    [GRAPHIC] [TIFF OMITTED] 21704.130
    
    [GRAPHIC] [TIFF OMITTED] 21704.131
    
    [GRAPHIC] [TIFF OMITTED] 21704.132
    
    [GRAPHIC] [TIFF OMITTED] 21704.133
    
    [GRAPHIC] [TIFF OMITTED] 21704.134
    
    [GRAPHIC] [TIFF OMITTED] 21704.135
    
    [GRAPHIC] [TIFF OMITTED] 21704.136
    
    [GRAPHIC] [TIFF OMITTED] 21704.137
    
    [GRAPHIC] [TIFF OMITTED] 21704.138
    
    [GRAPHIC] [TIFF OMITTED] 21704.139
    
    [GRAPHIC] [TIFF OMITTED] 21704.140
    
    [GRAPHIC] [TIFF OMITTED] 21704.141
    
    [GRAPHIC] [TIFF OMITTED] 21704.142
    
    [GRAPHIC] [TIFF OMITTED] 21704.143
    
    [GRAPHIC] [TIFF OMITTED] 21704.144
    
    [GRAPHIC] [TIFF OMITTED] 21704.145
    
    [GRAPHIC] [TIFF OMITTED] 21704.146
    
    [GRAPHIC] [TIFF OMITTED] 21704.147
    
    [GRAPHIC] [TIFF OMITTED] 21704.148
    
    [GRAPHIC] [TIFF OMITTED] 21704.149
    
    [GRAPHIC] [TIFF OMITTED] 21704.150
    
    [GRAPHIC] [TIFF OMITTED] 21704.151
    
    [GRAPHIC] [TIFF OMITTED] 21704.152
    
    [GRAPHIC] [TIFF OMITTED] 21704.153
    
    [GRAPHIC] [TIFF OMITTED] 21704.154
    
    [GRAPHIC] [TIFF OMITTED] 21704.155
    
    [GRAPHIC] [TIFF OMITTED] 21704.156
    
    [GRAPHIC] [TIFF OMITTED] 21704.157
    
    [GRAPHIC] [TIFF OMITTED] 21704.158
    
    [GRAPHIC] [TIFF OMITTED] 21704.209
    
    [GRAPHIC] [TIFF OMITTED] 21704.210
    
    [GRAPHIC] [TIFF OMITTED] 21704.211
    
    [GRAPHIC] [TIFF OMITTED] 21704.212
    
    [GRAPHIC] [TIFF OMITTED] 21704.213
    
    [GRAPHIC] [TIFF OMITTED] 21704.214
    
    [GRAPHIC] [TIFF OMITTED] 21704.215
    
    [GRAPHIC] [TIFF OMITTED] 21704.159
    
    [GRAPHIC] [TIFF OMITTED] 21704.160
    
    [GRAPHIC] [TIFF OMITTED] 21704.161
    
    [GRAPHIC] [TIFF OMITTED] 21704.162
    
    [GRAPHIC] [TIFF OMITTED] 21704.163
    
    [GRAPHIC] [TIFF OMITTED] 21704.164
    
    [GRAPHIC] [TIFF OMITTED] 21704.165
    
    [GRAPHIC] [TIFF OMITTED] 21704.166
    
    [GRAPHIC] [TIFF OMITTED] 21704.167
    
    [GRAPHIC] [TIFF OMITTED] 21704.168
    
    [GRAPHIC] [TIFF OMITTED] 21704.169
    
    [GRAPHIC] [TIFF OMITTED] 21704.170
    
    [GRAPHIC] [TIFF OMITTED] 21704.171
    
    [GRAPHIC] [TIFF OMITTED] 21704.172
    
    [GRAPHIC] [TIFF OMITTED] 21704.173
    
    [GRAPHIC] [TIFF OMITTED] 21704.174
    
    [GRAPHIC] [TIFF OMITTED] 21704.175
    
    [GRAPHIC] [TIFF OMITTED] 21704.176
    
    [GRAPHIC] [TIFF OMITTED] 21704.177
    
    [GRAPHIC] [TIFF OMITTED] 21704.178
    
    [GRAPHIC] [TIFF OMITTED] 21704.179
    
    [GRAPHIC] [TIFF OMITTED] 21704.180
    
    [GRAPHIC] [TIFF OMITTED] 21704.181
    
    [GRAPHIC] [TIFF OMITTED] 21704.182
    
    [GRAPHIC] [TIFF OMITTED] 21704.183
    
    [GRAPHIC] [TIFF OMITTED] 21704.184
    
    [GRAPHIC] [TIFF OMITTED] 21704.185
    
    [GRAPHIC] [TIFF OMITTED] 21704.186
    
    [GRAPHIC] [TIFF OMITTED] 21704.187
    
    [GRAPHIC] [TIFF OMITTED] 21704.188
    
    [GRAPHIC] [TIFF OMITTED] 21704.189
    
    [GRAPHIC] [TIFF OMITTED] 21704.190
    
    [GRAPHIC] [TIFF OMITTED] 21704.191
    
    [GRAPHIC] [TIFF OMITTED] 21704.192
    
    [GRAPHIC] [TIFF OMITTED] 21704.193
    
    [GRAPHIC] [TIFF OMITTED] 21704.194
    
    [GRAPHIC] [TIFF OMITTED] 21704.198
    
    [GRAPHIC] [TIFF OMITTED] 21704.199
    
    [GRAPHIC] [TIFF OMITTED] 21704.200
    
    [GRAPHIC] [TIFF OMITTED] 21704.201
    
    [GRAPHIC] [TIFF OMITTED] 21704.202
    
    [GRAPHIC] [TIFF OMITTED] 21704.203
    
    [GRAPHIC] [TIFF OMITTED] 21704.204
    
    [GRAPHIC] [TIFF OMITTED] 21704.205
    
    [GRAPHIC] [TIFF OMITTED] 21704.206
    
    [GRAPHIC] [TIFF OMITTED] 21704.207
    
    [GRAPHIC] [TIFF OMITTED] 21704.208
    
    [GRAPHIC] [TIFF OMITTED] 21704.195
    
    [GRAPHIC] [TIFF OMITTED] 21704.196
    
    [GRAPHIC] [TIFF OMITTED] 21704.197
    
                                    

</pre></body></html>
